<html>
<title> - EMERGENCY PREPAREDNESS: EVALUATING THE U.S. DEPARTMENT OF VETERANS AFFAIRS' FOURTH MISSION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]






                        EMERGENCY PREPAREDNESS:
                   EVALUATING THE U.S. DEPARTMENT OF
                    VETERANS AFFAIRS' FOURTH MISSION

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON OVERSIGHT AND
                             INVESTIGATIONS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 23, 2010

                               __________

                           Serial No. 111-86

                               __________

       Printed for the use of the Committee on Veterans' Affairs




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>






                                  ______

                      U.S. GOVERNMENT PRINTING OFFICE
  58-053 PDF               WASHINGTON : 2010
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7c1b0c133c1f090f081419100c521f131152">[email&#160;protected]</a>  






                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     HENRY E. BROWN, Jr., South 
Dakota                               Carolina
HARRY E. MITCHELL, Arizona           JEFF MILLER, Florida
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
DEBORAH L. HALVORSON, Illinois       BRIAN P. BILBRAY, California
THOMAS S.P. PERRIELLO, Virginia      DOUG LAMBORN, Colorado
HARRY TEAGUE, New Mexico             GUS M. BILIRAKIS, Florida
CIRO D. RODRIGUEZ, Texas             VERN BUCHANAN, Florida
JOE DONNELLY, Indiana                DAVID P. ROE, Tennessee
JERRY McNERNEY, California
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota
JOHN H. ADLER, New Jersey
ANN KIRKPATRICK, Arizona
GLENN C. NYE, Virginia

                   Malcom A. Shorter, Staff Director

                                 ______

              Subcommittee on Oversight and Investigations

                  HARRY E. MITCHELL, Arizona, Chairman

ZACHARY T. SPACE, Ohio               DAVID P. ROE, Tennessee, Ranking
TIMOTHY J. WALZ, Minnesota           CLIFF STEARNS, Florida
JOHN H. ADLER, New Jersey            BRIAN P. BILBRAY, California
JOHN J. HALL, New York

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.










                            C O N T E N T S

                               __________

                             June 23, 2010

                                                                   Page
Emergency Preparedness: Evaluating the U.S. Department of 
  Veterans Affairs' Fourth Mission...............................     1

                           OPENING STATEMENTS

Chairman Harry E. Mitchell.......................................     1
    Prepared statement of Chairman Mitchell......................    29
Hon. David P. Roe, Ranking Republican Member.....................     2
    Prepared statement of Congressman Roe........................    29

                               WITNESSES

U.S. Department of Health and Human Services, Kevin Yeskey, M.D., 
  Director, Office of Preparedness and Emergency Operations, 
  Deputy Assistant Secretary, Office of Preparedness and 
  Emergency Response.............................................    15
    Prepared statement of Dr. Yeskey.............................    43
U.S. Department of Homeland Security, Federal Emergency 
  Management Agency, Steven C. Woodard, Director of Operations 
  Division, Response Directorate.................................    17
    Prepared statement of Mr. Woodard............................    44
U.S. Department of Defense, Captain D.W. Chen, M.D., MPH, USN, 
  Director of Civil-Military Medicine, Force Protection and 
  Readiness Policy and Programs, Office of the Assistant 
  Secretary of Defense for Health Affairs........................    18
U.S. Department of Veterans Affairs, Hon. Jose D. Riojas, 
  Assistant Secretary for Operations, Security, and Preparedness.    22
    Prepared statement of Mr. Riojas.............................    48

                                 ______

American Legion, Barry A. Searle, Director, Veterans Affairs and 
  Rehabilitation Commission......................................     7
    Prepared statement of Mr. Searle.............................    37
American Red Cross, Washington, DC, Neal Denton, Senior Vice 
  President, Government Relations and Strategic Partnerships.....     9
    Prepared statement of Mr. Denton.............................    40
bt Marketing, The Woodlands, TX, John N. Hennigan, President and 
  Chief Executive Officer........................................     4
    Prepared statement of Mr. Hennigan...........................    30
Healthcare Coalition for Emergency Preparedness, Washington, DC, 
  Darrell Henry, Executive Director..............................     5
    Prepared statement of Mr. Henry..............................    32

 
                        EMERGENCY PREPAREDNESS:
                   EVALUATING THE U.S. DEPARTMENT OF
                    VETERANS AFFAIRS' FOURTH MISSION

                              ----------                              


                        WEDNESDAY, JUNE 23, 2010

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
              Subcommittee on Oversight and Investigations,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 10:05 a.m., in
Room 334, Cannon House Office Building, Hon. Harry E. Mitchell
[Chairman of the Subcommittee] presiding.

    Present: Representatives Mitchell, Adler, and Roe.

             OPENING STATEMENT OF CHAIRMAN MITCHELL

    Mr. Mitchell. Good morning, ladies and gentlemen. The 
Committee on Veterans' Affairs, Subcommittee on Oversight and 
Investigations, hearing on Emergency Preparedness: Evaluating 
the U.S. Department of Veterans Affairs' (VA's) Fourth Mission 
will come to order. This hearing is held on June 23, 2010. I 
ask unanimous consent that all Members have 5 legislative days 
to revise and extend their remarks, and that statements may be 
entered into the record. Hearing no objection, so ordered.
    I would also like to recognize Terry Araman, a veteran from 
Arizona, who is in attendance today. I want to personally thank 
Terry for your service and the good work you are doing to help 
veterans, especially the homeless veterans back home in 
Phoenix. Would you please stand, Terry? Thank you.
    [Applause.]
    On September 11, 2001, we witnessed one of the greatest 
tragedies in American history. Still today we all remember the 
horrific scenes of these terrorist attacks. Four years later in 
2005, the Gulf Coast was hit by one of the biggest natural 
disasters the region has ever seen as Hurricane Katrina swept 
through the region, killing thousands and leaving many homeless 
and displaced. And sadly again, today, we see Gulf States 
struggling with yet another major disaster as the oil continues 
to spill.
    These types of events highlight the critical need for 
Federal agencies to proactively prepare to effectively execute 
their Federal obligation, especially when called upon during 
emergencies. Today we will evaluate and examine the U.S. 
Department of Veterans Affairs' emergency management, 
preparedness security, and law enforcement activities to ensure 
the Department can perform the mission essential functions 
under all circumstances across the spectrum of threats, 
including natural disasters.
    With several health care facilities and hundreds of doctors 
and health care professionals, the VA emergency preparedness 
posture, also known as the Fourth Mission, must be able to 
respond when needed and when called upon. The Federal Response 
Plan (FRP) is an important mechanism for providing coordination 
of Federal assistance and resources to areas that have been 
overwhelmed by disaster and emergency situations while 
supporting the implementation of the Robert Stafford Disaster 
Relief and Emergency Assistance Act. The VA's Office of 
Operations Security and Preparedness is responsible for 
directing and providing oversight for the Department's 
planning, response, and security programs in support of the 
FRP.
    I am looking forward to hearing from the VA their emergency 
preparedness plans and how they coordinate and communicate with 
the other agencies, such as the Federal Emergency Management 
Agency (FEMA) and the U.S. Department of Health and Human 
Services (HHS), who are here today, to carry out their Fourth 
Mission. Every day we are reminded of the potential threats 
that are out there that may disrupt the American way of life 
and the freedoms we enjoy each day. The VA must be prepared to 
respond to these threats and offer their full support and 
resources to ensure that their role in the Federal Response 
Plan is integrated with other agencies to execute its mission.
    [The prepared statement of Chairman Mitchell appears on p. 
29.]
    Mr. Mitchell. Before I recognize the Ranking Republican 
Member for his remarks I would like to swear in our witnesses. 
I ask that all witnesses from all three panels if they would 
please stand and raise their right hand?
    [Witnesses sworn.]
    Mr. Mitchell. Thank you. I would now like to recognize Dr. 
Roe for opening remarks.

               OPENING STATEMENT OF DAVID P. ROE

    Mr. Roe. Thank you, Mr. Chairman, and thank you for holding 
this hearing today. Early in this decade, our country faced two 
major incidents that reinforced the need for emergency 
preparedness. On September 11, 2001, our country was attacked 
in a blatant act of terrorism as the World Trade Centers in New 
York fell and the Pentagon burned. The first responders were 
called to action and a Nation mourned. Again in 2005, Hurricane 
Katrina struck the Gulf Coast with an unprecedented fury. 
People's homes were flooded or ripped apart and major 
evacuations occurred. The Gulf Coast is still rebuilding today.
    Since the attacks of 9/11, the Committee on Veterans' 
Affairs has held four hearings on the subject of emergency 
preparedness. The last hearing was held on August 26, 2004. 
Today we will reexamine the role performed by the Department of 
Veterans Affairs in emergency preparedness and its response to 
national crises, whether the role continues to need serious 
upgrading or updating and reform.
    In particular we will focus on the VA's role during 
wartime, natural disasters, or major terrorist attacks on U.S. 
soil. While FEMA and the Department of Health and Human 
Services tend to take the lead role when an emergency occurs, 
one cannot deny the large importance of emergency preparedness 
at the VA. With 153 hospitals and hundreds of outpatient 
clinics spread across the country, VA stands in a unique 
position to provide emergency medical assistance in the event 
of an emergency.
    VA has defined roles currently in both the National 
Disaster Medical System (NDMS) and the National Response 
Framework (NRF) in the event of national emergencies. Among the 
specialized duties of the VA are conducting and evaluating 
disaster and terrorist attack simulation exercises; managing 
the Nation's stockpile of pharmaceuticals for biological and 
chemical toxins; maintaining a rapid response team for 
radiological events; and training public and private National 
Disaster Medical Systems, medical center personnel in 
responding to biological, chemical, or radiological events. 
Among the emergency support functions (ESF) assigned to VA, 
which relate directly to the mission of the VA, are ESF 6, 
which includes mass care, emergency assistance, 
housing and human serv- ices; and ESF 8, which includes public 
health and medical services.
    I am interested in discovering today what VA has learned 
from the events of 9/11, Katrina, and Hurricane Isabel, and how 
their roles relate to the overall emergency response 
mechanisms.
    Following Hurricane Katrina in September of 2005, the 
Speaker of the House called together a Select Bipartisan 
Committee to Investigate the Preparation for and Response to 
Hurricane Katrina. The report, ``A Failure of Initiative,'' was 
issued on February 15, 2006. I understand that Ranking Member 
Buyer was selected as a part of that Committee and worked on 
the report, and one of our own Subcommittee staff, Mr. Wu, was 
detailed to work on the Bipartisan Investigative Committee. I 
expect that we will hear from the Department that improvements 
have been made following this report as well as on 
recommendations made by the report from the Office of Inspector 
General (OIG) issued in January of 2006.
    I am also curious as to what the VA commitment is to 
emergency management with both dollars and manpower.
    And again, Mr. Chairman, I appreciate your holding this 
important meeting. And it is my hope that there will be good 
news, this will be a good news hearing that the VA is much 
better prepared to handle emergencies that come in the future.
    And just as a point, both the Chairman and myself have been 
Mayors of our respective cities at home. And after 9/11 as the 
local City Commissioner and as a physician, and having a VA in 
our community, we were assigned, or really I assigned myself, 
to really evaluate local preparedness. And it was woefully 
inadequate, I found out. Whether it be smallpox, when I got 
myself immunized, whether it be H1N1, I know on a local level, 
where the boots hit the ground, we have made huge strides in 
being able to meet these needs. And I look forward today, Mr. 
Chairman, I know you have dealt with this as the Mayor of 
Tempe, and I look forward to hearing the testimony.
    [The prepared statement of Congressman Roe appears on p. 
29.]
    Mr. Mitchell. Thank you, Dr. Roe. At this time I would like 
to welcome Panel One to the witness table. Joining us on our 
first panel is John Hennigan, President and Chief Executive 
Officer for bt Marketing; Darrell Henry, Executive Director of 
the Healthcare Coalition for Emergency Preparedness; Barry 
Searle, Director of Veterans Affairs and Rehabilitation 
Commission for the American Legion; and Neal Denton, Senior 
Vice President for Government Relations and Strategic 
Partnerships of the American Red Cross. And I ask that all 
witnesses please stay within the 5 minutes of their opening 
remarks, and your complete statements will be made part of the 
record.
    First, I would like to recognize Mr. Hennigan.

 STATEMENTS OF JOHN N. HENNIGAN, PRESIDENT AND CHIEF EXECUTIVE 
   OFFICER, BT MARKETING, THE WOODLANDS, TX; DARRELL HENRY, 
    EXECUTIVE DIRECTOR, HEALTHCARE COALITION FOR EMERGENCY 
   PREPAREDNESS, WASHINGTON, DC; BARRY A. SEARLE, DIRECTOR, 
   VETERANS AFFAIRS AND REHABILITATION COMMISSION, AMERICAN 
  LEGION; AND NEAL DENTON, SENIOR VICE PRESIDENT, GOVERNMENT 
   RELATIONS AND STRATEGIC PARTNERSHIPS, AMERICAN RED CROSS, 
                         WASHINGTON, DC

                 STATEMENT OF JOHN N. HENNIGAN

    Mr. Hennigan. Thank you, Mr. Chairman. Chairman Mitchell 
and Members of the Subcommittee, I would like to thank you for 
the opportunity to come here today as a citizen who has been 
involved with not just the medical industry here and abroad, 
but as an elected official in Montgomery County, Texas.
    I have been fortunate enough to travel extensively 
throughout South America, Europe, and here in the States in the 
health care arena. I have witnessed firsthand the differences 
between government facilities and those in the private sector, 
and can state without question the improvements I have seen in 
the VA facilities. A perfect example is the Michael E. DeBakey 
VA Medical Center (VAMC) in Houston, Texas. Prior to this 
health care system being built, in my opinion, our facilities 
were old and less than adequate for the veterans in our area.
    Before going into my testimony I would like to give this 
Subcommittee a brief background of myself for you to have a 
better understanding of why I feel privileged to be able to 
speak to the future needs of our veterans, and to offer a fresh 
pair of eyes to emergency preparedness and planning within the 
VA Department going forward.
    I mentioned earlier that I am an elected official in 
Montgomery County, Texas. I am a board member of the Montgomery 
County Hospital District (MCHD) and have been since 2006. I am 
currently serving as Vice Chair of this Board for my third 
consecutive year and in addition Chair our Legislative 
Committee. The Montgomery County Hospital District is the sole 
provider of emergency ambulance service for Montgomery County, 
Texas, serving a rapidly growing population of 460,000 
residents. MCHD responds to 42,000 calls for service each year.
    The Montgomery County Hospital District serves a pivotal 
role during disaster response. The agency and staff have taken 
a lead role in developing the tools to coordinate emergency 
medical service (EMS) mass response for coastal community 
evacuation and post-landfall response. MCHD's dispatch center 
was the coordination point for the mass EMS response into East 
Texas following Hurricane Rita. The lessons learned from that 
incident contributed greatly to the statewide success during 
Hurricane Ike, the largest EMS deployment in United States 
history.
    MCHD coordinates public health preparedness and medical 
branch operations in Montgomery County during large-scale 
operations, including the 2009 H1N1. Currently, MCHD is 
coordinating a regional effort to develop EMS mass response to 
no-notice catastrophic situations as part of the Regional 
Catastrophic Planning Grant program. Our Hospital District 
Chief Executive Officer serves as the Chairman of the Southeast 
Texas Regional Advisory Council. This organization is the grant 
recipient and administrative entity overseeing hospital 
preparedness using funding for the nine counties of the Houston 
region.
    Mr. Chairman, Subcommittee Members, my company has been 
involved with several startup organizations or corporations 
that are attempting to rise to another level. These companies 
have asked me to come in and assess current status, where they 
have been, and set goals to achieve where they would like to 
get. Through this process I have had clients who have benefited 
by programs that were well intended but lacked long-range 
planning. The reason I am here today is that I believe that I 
can plant the seed for new ideas in the hope that this 
Committee, and our Veterans Affairs Department, can nurture 
those ideas to benefit our veterans.
    And finally, I want to once again thank you for this 
opportunity to testify before this Subcommittee.
    [The prepared statement of Mr. Hennigan appears on p. 30.]
    Mr. Mitchell. Thank you very much. Next, Mr. Henry.

                   STATEMENT OF DARRELL HENRY

    Mr. Henry. Thank you for inviting us to testify today. 
Natural disasters such as earthquakes, hurricanes, and floods 
are often frequent reminders that we must be prepared when 
disaster strikes. And since 2001 the Nation has understood the 
importance of planning for acts of aggression against innocent 
citizens. The Healthcare Coalition for Emergency Preparedness 
was formed in an effort to raise awareness and educate people 
about often overlooked issues in plans to maintain health care 
facility operations during a crisis, and to develop efficient 
methods to reduce health care costs in that area. One of the 
largest hindrances to what we call operational security 
revolves around transportation constraints to the hospital 
itself, or such impacts on key suppliers and vendors.
    While we address a lot of issues in our full testimony 
today I would like to focus on one of the issues we have found 
often overlooked in operational sustainable planning, and that 
is adequate attention relating to the safe disposal of 
regulated medical waste, also known as infectious waste.
    Until the mid-1990s, most health care facilities 
incinerated materials onsite, but the Federal Government banned 
that practice. The current practice for most health care 
facilities is to manage infectious and contagious waste by 
transporting such materials over our Nation's highways, through 
our cities and neighborhoods, by nonclinical commercial 
truckdrivers to a regional facility to be treated and disposed 
of. Under a widespread community emergency, facilities would be 
inundated and supply management would be stressed.
    The Joint Commission requires health care facilities to be 
self-sufficient for 96 hours. However, the volume of hazardous 
medical waste would dramatically increase when there is a surge 
on a hospital's capacity due to a large population suddenly 
contracting a contagious disease, such as in a pandemic, or a 
natural, or manmade disaster. In addition, the U.S. Government 
Accountability Office (GAO) and other reports have warned that 
waste disposal would be near impossible for quarantined or 
isolated health care facilities that have outsourced the 
responsibility of sterilizing contagious materials.
    Because the primary method of controlling the spread of 
infection and avoiding pandemic is quarantining, the developing 
of an onsite approach to waste disposal appears to be the most 
appropriate one. Further, various reports by health officials 
and other experts have recognized that onsite medical waste 
treatment is the best practice for emergency preparedness and 
pandemic response.
    Taking an onsite sustainability approach not only helps 
address a hospital's ability to handle a crisis, but also 
issues with offsite providers that would occur in the case of a 
pandemic or crisis. Vendor problems, including transportation 
constraints and staff shortages, would be out of control of a 
health care facility. Fortunately, modern, affordable 
technologies exist that can cleanly, safely, and economically 
sterilize infectious and contagious medical waste on the 
premises of health care facilities.
    We would also like to point out that installing onsite 
waste sterilization equipment at VA facilities would provide 
ancillary and immediate benefits for the VA beyond emergency 
preparedness, including cost savings and carbon emission 
reductions. Expenditures for onsite treatment of infectious 
waste is perhaps the only preparedness tool that would pay for 
itself from the day of installation as this equipment often 
produces a return on investment, a payback between 18 and 36 
months.
    We estimate that onsite treatment using sterilization 
equipment can produce an average cost savings of $1.6 million 
per hospital, which would equate to about $190 million if 
installed at all 117 VA Medical Center hospitals that are 
currently relying on offsite vendors to haul and treat their 
waste. Further, regarding the VA's ability to comply with 
Executive Order 13514 to reduce carbon emissions, the Coalition 
has developed a carbon footprint calculator that can calculate 
in real numbers the reduction in pounds of CO<INF>2</INF> 
emissions each year for those facilities that install onsite 
waste processing.
    We have constructively urged that onsite sterilization 
capabilities be added to the VA's list of best standards and 
practices, as well as to the list of mission critical 
components in their emergency plan. Currently, 24 VA facilities 
process their waste onsite. We know that many facilities would 
like to add this component to their capital budgets but thus 
far have not done so. We do know that there are groups within 
the VA that are looking at this very issue and recognize that 
onsite medical waste treatment could benefit VA facilities from 
an everyday operational aspect as well as emergency 
preparedness.
    Our Nation remains vulnerable in the area of contagious 
waste management during a pandemic or crisis. We have produced 
alternatives that should be a best practice for emergency 
preparedness and facility operations at the VA. Again, thank 
you for the opportunity and I look forward to your questions.
    [The prepared statement of Mr. Henry appears on p. 32.]
    Mr. Mitchell. Thank you, Mr. Henry. Next, Mr. Searle.

                  STATEMENT OF BARRY A. SEARLE

    Mr. Searle. Mr. Chairman and Members of the Subcommittee, 
thank you for the opportunity to present the views of the 
American Legion concerning this extremely important, but 
sometimes neglected topic. The American Legion applauds the 
foresight of this Subcommittee in bringing this topic back to a 
place of importance.
    As was seen during Hurricane Katrina, the flooding in 
Oklahoma City and Nashville this year, as well as Iowa, and the 
Dakotas last year, and tornadoes across the U.S., a natural 
disaster is only days, hours, or minutes away. Additionally, a 
weapon of mass destruction can turn an urban area into a mass 
casualty area, crippling communications and overwhelming 
traditional emergency services. Prior planning and coordination 
are the difference between managing a disaster effectively and 
adding to the chaos and suffering.
    The Department of Veterans Affairs has developed policies 
and has given guidance concerning emergency preparedness. There 
is no question that the VA Central Office understands and 
accepts its responsibility to prepare for and execute its 
Fourth Mission, support of national emergency preparedness. 
While the American Legion applauds VA for its approach to 
preparedness, we are concerned that there may be a lack of 
oversight and feedback at the regional office, Veterans 
Integrated Service Network (VISN), and facility levels. The 
American Legion is concerned that preparedness may be 
overshadowed by primary day-to-day operations. This would 
potentially lead to confusion and delay in a disaster situation 
in an attempt to organize a response.
    A January 2006 OIG report on emergency preparedness in 
Veterans Health Administration (VHA) facilities stated that at 
the national level VHA has developed comprehensive initiatives 
and directives to address emergency preparedness training, 
community participation, and decontamination activities. 
However, at the facility level, VA employees do not 
consistently receive emergency preparedness training and 
emergency plans do not always include some critical training 
elements as required.
    VA's Emergency Management Strategic Healthcare Group has as 
part of its mission statement an approach that, ``assures the 
execution of VA's Fourth Mission, to improve the Nation's 
preparedness for response to war, terrorism, national 
emergencies, and natural disasters by developing plans and 
taking actions to ensure continued service to veterans as well 
as to support national, State, and local emergency management, 
public health, safety, and homeland security efforts.''
    VA's 2009 Emergency Management Guidebook, a well-organized 
framework identifying duties and responsibilities, goes into 
great detail concerning training to include sample scenarios, 
which cover a wide range of incidents including hurricanes, 
earthquakes, multiple bus accidents involving numerous 
injuries. What we were not able to determine is a feedback 
mechanism to confirm implementation at the regional office, 
VISN, or facility level. The American Legion's System Worth 
Saving Task Force annually conducts site visits at VA Medical 
Centers nationwide to assess the quality and timeliness of VA 
health care. We have found there is a wide range of actual 
response preparedness across VHA. We believe that this range is 
symptomatic of the decentralized nature of VA.
    The American Legion and other veterans service 
organizations have been briefed on 38-foot vans primarily 
tasked with providing veterans counseling outreach, but 
specifically designed and adapted for medical purposes during 
disaster relief efforts. In particular, each has satellite 
communications capability critical in a disaster situation. 
This is an excellent program that shows how a specific 
component can be utilized to fulfill multiple roles when the 
demand exists. During 2009, massive flooding which overwhelmed 
portions of the Midwest, in Fargo, North Dakota, where regular 
VA Medical Center operations were impacted by the flooding, VA 
dispatched three mobile Vet Centers for use as triage clinics 
to help bridge the gap for the community until regular 
operations could be restored. However, during recent 
discussions with a group of facilities directors it was found 
that some had no knowledge of the mobile clinics' existence. 
Such a valuable resource must be a part of an ingrained 
knowledge of any facility director or the value of these tools 
will be lost.
    Also, the Atlanta Medical Center coordinated with and 
utilized staff members at local hospitals to provide medical 
services for individuals injured in the Haitian earthquake 
under National Management Disaster Assistance Program. 
Unfortunately, we have also found that at the local level there 
is in some cases a lack of awareness of the responsibility of 
facilities to prepare for non-veteran casualty assistance. 
Additionally, it was discovered that turnover and shortage of 
personnel at most facilities require emphasis on standardized 
procedures, quality review, and individual training, as well as 
documentation of that training.
    Emphasis on rural health care clinics and telehealth in 
order to assist veterans will continue to expand the VA's 
outreach and disburse critical assets and make them available 
in the case of an emergency. As was shown during the flooding 
in Fargo, North Dakota, should a VAMC's operation be degraded 
due to natural disaster, a relatively close rural clinic or 
clinics with functional telecommunications could be developed 
as a staging area for direct resources and to some degree 
triage areas for evacuating casualties until the VAMC could 
resume full operation.
    In conclusion, the American Legion realizes the importance 
of VA's Fourth Mission, not only to the veterans that the VA 
serves but to the Nation as a whole. In our resolution in 2008 
we urged the Secretary of Veterans Affairs to take an active 
role in development and implementation of plans to enhance 
Federal homeland security initiatives, and that Congress 
provide VA with the funding necessary to further enhance its 
capability to act as a backup to the U.S. Department of Defense 
(DoD) and FEMA. We believe that at the national level VA is 
serious in this mission. However, we feel that additional 
followup and reporting on activities on the local level is 
essential to ensure that Central Office policies actually are 
being executed.
    Thank you again for the opportunity to provide insight and 
analysis on this issue on behalf of the American Legion and its 
more than 2.5 million members.
    [The prepared statement of Mr. Searle appears on p. 37.]
    Mr. Mitchell. Thank you, Mr. Searle. Mr. Denton.

                    STATEMENT OF NEAL DENTON

    Mr. Denton. Good morning, Chairman Mitchell, Dr. Roe, Mr. 
Adler, thank you for your attention to emergency preparedness 
today. Your timing is impeccable. This is a critical time of 
the year, as the Red Cross is currently responding to 
tornadoes, floods, and wildfires. At the same time we are 
preparing for what looks to be a very active hurricane season. 
I am going to highlight three points in my written testimony 
that speak a little bit to the partnership between the Red 
Cross, the Department of Veterans Affairs, and others here in 
this room when it comes to disaster response.
    You are familiar with our mission to provide relief and 
help communities prevent, prepare for and respond to 
emergencies. What you may not know is that we meet our mission 
through a national network of nearly 700 chapters that respond 
to around 70,000 disasters annually. That is about 200 
disasters every day. The Red Cross also provides support to 
members of the military, veterans, and their families, and 
supplies nearly half of the Nation's blood supply, and teaches 
life-saving skills in communities across the country.
    The Red Cross is a charitable organization, not a 
government agency. We depend on volunteers, and the generosity 
of the American public to perform our mission, including 
donations of time, of money, and of blood. Whether it is a 
hurricane, or a heart attack, a call for blood, or a call for 
help, the American Red Cross is there. And that is my first 
point. Trained and experienced Red Cross volunteers and staff 
in your hometowns are on the front lines when emergencies occur 
in their communities. Our national system supplements the local 
chapter presence with staff or additional resources whenever 
necessary.
    My second point speaks to the importance of strong 
partnerships. Identifying new partners and strengthening 
existing partnerships is a key priority for our organization. 
We strive to be an effective leader and valuable partner 
before, during, and after a disaster strikes. In recent years, 
we focused more of our resources on coordinating and 
strengthening key relationships with our Federal partners like 
the VA and FEMA. With support from FEMA, we have full time Red 
Cross employees to staff each of the FEMA regional offices, the 
National Disaster Housing Task Force, and FEMA headquarters. In 
a disaster response capacity, the American Red Cross sits at 
the same table with the VA during planning and exercises and 
operations. We both serve as a support agency for the National 
Response Framework, and work closely together on ESF 6, 
providing technical support for mass care, emergency 
assistance, housing, and human services.
    The VA and the Red Cross also are collaborating with the 
DoD, HHS, and FEMA as we develop a more reliable patient and 
evacuee tracking system. The Red Cross is also excited about a 
possible opportunity with the VA to address the challenges of 
caring for loved ones who suffer from chronic illness or 
temporary or permanent disabilities. Red Cross Family 
Caregiving and Nursing Assistant programs help develop skills 
in personal care, nutrition, home safety, and legal and 
financial issues. Training builds confidence and instills 
knowledge that a caregiver will need when providing support to 
a veteran.
    Our partner outreach extends beyond traditional disaster 
response agencies. We are committing to fostering a culture of 
collaboration, diversity, and inclusion in all of our 
partnering efforts. We continue to rely on a list of 
longstanding partners in a disaster, such as Southern Baptist 
Disaster Relief, Salvation Army, Catholic Charities, Hope 
Worldwide, the National Association for the Advancement of 
Colored People (NAACP), the National Council of La Raza, Legal 
Services Corporation, the National Baptist Convention, National 
Disabilities Rights Network, Save the Children, Tzu Chi 
Buddhist Foundation, and on and on. These groups provide 
invaluable expertise and together, as partners, we continue to 
strengthen the country's capacity to better meet the needs of 
the diverse communities we serve.
    My last point, and perhaps the most important point, is 
encouraging community and citizen preparedness. Last summer the 
American Red Cross Emergency Preparedness Survey indicated that 
half of Americans have experienced at least one significant 
emergency where they have lost utilities for 3 days, they could 
not return home, they were unable to communicate with family 
members, or had to provide first aid to others. Although 89 
percent of those surveyed believe it is important to be 
prepared, far fewer are actually ready for an emergency. 
Families need to gather together at the dinner table to make an 
emergency communication plan and identify a meeting place 
should they become separated during a disaster.
    To help military families prepare for emergencies, the 
American Red Cross, FEMA, ready.gov, and others co-hosted the 
military family preparedness event held recently at Fort 
Belvoir, June 5th. Together, we distributed some 1,500 
preparedness kits to active duty, retired, Reserve soldiers and 
their families in the parking lot at the Post Exchange (PX). 
This September, as part of the National Preparedness Month, we 
are planning to conduct similar events at three military 
installations across the U.S. and two locations overseas in 
order to raise awareness of being prepared and to help families 
prepare for emergencies. It is a promising start but there is 
still much more we can do.
    In conclusion, as we enter this 2010 hurricane season we 
are pleased to be working with FEMA's strong leadership team 
with Administrator Fugate and the leadership in the executive 
branch. The Red Cross stands ready to help those in need. We 
are working hard to improve our efficiencies and to increase 
individual community preparedness. Thank you for allowing us to 
be here today. I look forward to any questions you may have.
    [The prepared statement of Mr. Denton appears on p. 40.]
    Mr. Mitchell. Thank you. I have a question for anybody who 
would like to answer this. In reviewing the National Response 
Plan there is a myriad of Federal resources called upon in 
response to a crisis. How do we determine if the agencies will 
be able to work together? Yes, just go ahead.
    Mr. Hennigan. Thank you, Mr. Chairman. I can speak from 
experience in Montgomery County when we had Ike occur. We first 
had Rita hit the Gulf Coast and it was truly total confusion. 
And what we found, contra lanes in the freeway to try to 
evacuate people on the Gulf Coast, was a disaster. It was done 
too late. Communications between EMS, fire stations, police, 
sheriff, State police, were inappropriate.
    Since that time, prior to Ike, we all went on the same 
frequencies. We developed a program where contra flow of lanes 
was done well in advance versus a 24-hour mandate, get out of 
town. So I think a lot of it is can the communities, in this 
case with the VA, can the community officials communicate to 
the VAs and vice-versa on the same frequencies? Whether it is 
radio, whether there is a set plan or one organization that 
coordinates all the different entities as we are doing in 
Montgomery County right now, can that happen? And when that 
happens, it just makes life a lot easier for everybody because 
you only have one source to go to and they will do the, they 
will delegate the appropriate things to do.
    Mr. Mitchell. You know, there is again a myriad of agencies 
involved in all of the emergency preparedness. And again, let 
me just ask others, how do we determine if these agencies are 
able to work together? Sometimes I think there is a 
miscommunication of who has what role to play. How can we 
determine that?
    Mr. Searle. Well sir, as far as the DoD/VA interaction, one 
of the things that we see that is very positive is on a day-to-
day basis now in the attempt to develop the lifetime virtual 
records. It has established communications between DoD, VA, and 
the public sector, actually, as far as transferring public 
information on veterans. The hope of the American Legion is 
that that will have started a crack in the dyke, if you will. 
There is no question that stove piping exists and it has to be 
broken down through the national framework, response framework. 
And people have assigned positions, jobs and responsibilities. 
For example, the American Legion is not telling VA how to do 
that, but it is reasonable that they would be under the ESR 8 
as a support function, that they would not be in a lead 
function in this case. But there is a framework there for 
telling people what they should be doing and feeding into it. 
But I think that VA has taken some serious steps in making a 
coordination with other entities, be it DoD and civilian 
doctors, for example, which will eventually help with the 
system. It is not going to solve the whole thing, but at least 
it is a starting point.
    Mr. Denton. Mr. Chairman, if you do not mind I would like 
to say something on this, too. So much of this builds on 
exercises, the national level exercises that bring groups 
together for tabletop exercises in advance so that we get to 
know who the players are and what their capacities are, what it 
is they are going to bring to the table and what it is that 
they thought we were going to bring. During these exercises, we 
discovered, ``No, that is actually something we need to resolve 
somewhere else.'' So much of this really happens on a local 
level too.
    You know, I mentioned in my testimony the event we just 
held at Fort Belvoir, where we had a military family 
preparedness event. At that parking lot there in the PX, all of 
the players who would respond to a disaster at Fort Belvoir 
were there. It was a bright, sunny day and we were handing out 
preparedness kits. But the other thing that was going on was we 
were meeting the others in the community who would be 
responding to a disaster if something were to happen there. 
Having a chance to talk to each other, connect with each other, 
and talk a little bit about what our roles and responsibilities 
are if something were to happen. The more of these that happen 
on a local level, I think, the more success we are going to 
have.
    Mr. Mitchell. I just was looking at the Federal Response 
Plan and the VA has a support role, with four different 
agencies that have the primary response. We have a support role 
with DoD, there is one with the American Red Cross, there is 
one with the General Services Administration (GSA), and also 
HHS. And I just want to make sure that everybody understands 
their role, in support of a primary role. Thank you. Dr. Roe.
    Mr. Roe. Just a brief comment, Mr. Chairman. To start with, 
I think in my background as a battalion surgeon in the 
military, and as a physician, and we have a hospital, a VA 
hospital, a mile from our main hospital, a 500-bed hospital 
with a medical school in our community, and Mr. Denton, you are 
absolutely right. I have participated as a surgeon in mass 
casualties. And they will overwhelm any system. The planning 
has to start at your house. In my home, we have a benevolent 
dictator, that is my wife. But we have a communications plan in 
our own family that we get together. As the Mayor of our city, 
just as the Chairman did, we have a book that establishes 
command and control. You have to know who is in charge when you 
start. When a disaster occurs there has to be someone who is 
responsible in a chain of command. Otherwise, it is a disaster. 
So we very carefully in our city planned and had many training 
exercises on what happens if we have a hazmat spill on the 
interstate? What happens if we have a smallpox outbreak? I got 
myself re-inoculated to participate in that because I had to go 
down to the hospital and provide the health care that we need.
    So you are absolutely right. All this nationally is good a 
few days later. As I explained to the people at home, we have 
150 police officers, we have 60,000 people in this town. You do 
the math. We cannot get by your house every day. You are going 
to have to make sure you have water, blankets, canned food, and 
so on. And we go over that, and we sent a briefing packet out 
to every family in our community that this is what you need to 
plan for. And we have 110 firemen, and so on. So that is 
correct.
    These services come in later. And obviously what you learn 
very quickly in a hospital is, is you do not, you know, your 
bunion now is not an emergency. You put that off for 3 years, 
you can put it off another 3 years. You stop all elective 
procedures and you go strictly to your emergency. And even that 
will be overwhelmed very quickly in a mass casualty of over 25 
or 30 people. It does not take very many to overwhelm a system.
    And I agree with the Chairman, very clearly you need to 
know who supports what because this is a very complicated 
national system and we found out the failures of it in Katrina. 
And I think the local folks in New York City did an incredible 
job on 9/11. I was absolutely amazed at how the local police, 
fire, and EMS did their job.
    A comment, Mr. Denton, on what you said. If you would just, 
I will stop right there and let you make a comment, and then I 
have one more question, Mr. Chairman.
    Mr. Denton. Well, I agree entirely and I would take it one 
step further. Once you have a plan for your family, once you 
have a plan for your loved ones, think of your neighbors, like 
the elderly resident across the street, or that person down the 
road who may have some disability that requires some sort of 
special attention. Are we thinking about those folks, too? 
Because it might be 24, 48 hours before somebody can get down 
your street, before one of those Red Cross emergency response 
vehicles can come down the street. How folks are prepared to 
take care of themselves and their community is the beginning of 
this entire discussion.
    Mr. Roe. I think you are right. I think you saw that in 
Nashville, when folks did take care of their neighbors. That is 
a great point, and you do that. I think, Mr. Henry, I mean just 
a couple of questions on the waste. The reason I think hospital 
systems have done this is that they feel like it can be more 
efficiently done somewhere else. If they felt like it would 
save them money I think they would do it. And I would like to 
see some more data on that for VA because if 24 VAs are doing 
that and I guess another 130 are not, then the question is if 
it saves money why has VA not done that? I think local 
hospitals, where we are typically, turf this out because it 
saves them money. They do it for that reason. Not because of a 
mass casualty, they do it just for the, I mean, you may deal 
with one mass casualty or you may never deal with one.
    Mr. Henry. And that is why we looked at the cost estimates 
separately. We found that when you install the stuff onsite it 
is about a third less cost than shipping it offsite. The 
offsite came by accident, as a convenience when the Federal 
Government pretty much, vis-a-vis the Environmental Protection 
Agency regulations, banned onsite incineration. Most of the 
facilities shut down their incinerators as a temporary fix. 
They moved to bringing in haulers to take the stuff offsite and 
treat it. Over time, that function kind of moved into the 
environmental section of the hospital. And it just became more 
of a janitorial exercise. And when you are looking at 
installing this equipment, this is capital budget costs, and 
the evaluation for purchasing capital budget costs are 
different. And it is a multiple-year thing. And certainly on 
the first-year basis to bring that in, the cost would be higher 
to install the capital equipment than that budget line item for 
that year to haul it offsite. However, when we are looking, you 
know, over a 5-year payback period there is significant savings 
for the facilities themselves.
    Mr. Roe. I am going to just very briefly, I would, I agree 
with that. I mean, but any business would look at not just the 
first, if any business looked at capital costs the first year, 
nobody would do anything, because nothing ever pays back, or if 
you are the luckiest human being in the world, it pays you back 
in the first year you have it. So I would like to look at that. 
I think you said, I think we need further study on that. If it 
saves the VA $190 million, we can look at the pros and cons of 
it.
    Mr. Henry. Okay, right.
    Mr. Roe. I yield back, and thank you.
    Mr. Mitchell. Thank you very much. And I thank you for your 
service to your communities, and for coming here today and 
testifying at this important event. Thank you.
    Mr. Hennigan. Mr. Chairman? With your indulgence?
    Mr. Mitchell. Sure.
    Mr. Hennigan. I was under the impression we would have an 
opening statement, and come back and give testimony. I failed 
to give you the testimony that I have brought forth to this 
Committee. It is in writing, it will certainly be in the 
record. But if you could allow me the 3 minutes remaining on 
the time that I did not use to give my testimony?
    Mr. Mitchell. Yes, go ahead.
    Mr. Hennigan. Thank you very much. Mr. Chairman and 
Committee Members, in evaluating the request to speak to you 
today concerning emergency preparedness of the VA systems along 
with the companies I am involved with in both the private and 
public sector, I drew from our lessons learned in Montgomery 
County, Texas. Those lessons taught us that there are key 
topics necessary to address in preparation of such 
catastrophes. Those areas include communications, action, and 
review of the new programs available.
    In our case in the Gulf Coast, hurricane season repeats 
itself every year so that preparation becomes a fine tuning 
issue versus starting from the unknown. In my review of the VA 
Web site, I found it easy to find information and locate 
facilities. This is a large part of the successes we have had 
in Montgomery County, with the ability to communicate with our 
residents and it falls under the communications necessary to 
serve the people the VA is charged with caring for. The need 
for our veterans to be able to communicate to the VA is 
essential and in scrolling through the Web site there are 
several toll-free numbers to do this. My question to this 
Committee, and I do not know the answer, is are we doing enough 
for them communicating using other forms of contact?
    In addition, since every area of the country has known 
weather disasters--fires, mudslides, earthquakes in the west, 
tornadoes in the mid-section of our country, hurricanes and 
flooding in the Southeast and Northeast--are there plans in 
place through the Veterans Administration that educate our 
veterans where to go and what to do to prepare? Since the 
Veterans Administration has divided the country into what I now 
know as 21 VISNs, would it be beneficial for each zone with 
known potential catastrophic issues to communicate to their 
constituency what to do, where to go, if such an issue occurs?
    Are our facilities prepared in case of a catastrophic event 
in each zone? An example, what we did after Rita was to 
identify what went wrong, and there was plenty, to determine 
how best to resolve those problems. A few problems MCHD 
incurred during Rita that were addressed and solutions found: 
power outages, no fuel, no refrigeration, evacuation problems. 
Again, I believe advance solutions can be found with our 
knowledge of weather-related issues in geographic areas in the 
United States.
    The new programs, does the VA integrate new communications 
programs to benefit our veterans on an ongoing basis? Is it 
working with local officials with this communication? Is there 
a method that rewards staff members that create programs to 
better serve our veterans? What is the mission of the VA, and 
is it communicated with those who have to achieve it? There are 
always entrepreneurs who can identify problems and create 
solutions. Are we making the opportunities available to them to 
introduce themselves and become a supplier to the VA? I was 
pleased locally to find out that there was support from the 
Veterans Affairs on H.R. 114, in assisting our veterans who 
have been inside the ropes, understand the problems, and have 
creative solutions. Are we listening to them?
    And I will not go through the rest. I know it is on the 
record, sir. But I wanted just to take a chance to thank you 
again for allowing us to speak before this Committee, and 
hopefully come up with some solutions.
    Mr. Mitchell. I thank you, and those are very good 
questions. Thank you very much.
    At this time I would like to welcome Panel Two to the 
witness table. For our second panel we will hear from Captain 
D.W. Chen, Director of Civil-Military Medicine, U.S. Department 
of Defense, who is accompanied by Christy Music, Director of 
Health Medical Policy, Office of Homeland Defense and Americas' 
Security Affairs, U.S. Department of Defense. Also joining us 
is Dr. Kevin Yeskey, Deputy Assistant Secretary and Director 
for the Office of Preparedness and Emergency Operations, 
Department of Health and Human Services, and Steve Woodard, 
Director of Operations Division, Response Directorate, Federal 
Emergency Management Agency, U.S. Department of Homeland 
Security (DHS).
    Because of a delay in DoD finding a witness that could 
speak to their role amongst other Federal agencies in emergency 
planning, they will not be giving an opening statement but will 
be available for questions.
    I would now like to recognize Dr. Yeskey for the Department 
of Health and Human Services.

     STATEMENTS OF KEVIN YESKEY, M.D., DIRECTOR, OFFICE OF 
    PREPAREDNESS AND EMERGENCY OPERATIONS, DEPUTY ASSISTANT 
SECRETARY, OFFICE OF PREPAREDNESS AND EMERGENCY RESPONSE, U.S. 
  DEPARTMENT OF HEALTH AND HUMAN SERVICES; STEVEN C. WOODARD, 
DIRECTOR OF OPERATIONS DIVISION, RESPONSE DIRECTORATE, FEDERAL 
   EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT OF HOMELAND 
SECURITY; CAPTAIN D.W. CHEN, M.D., MPH, USN, DIRECTOR OF CIVIL-
 MILITARY MEDICINE, FORCE PROTECTION AND READINESS POLICY AND 
  PROGRAMS, OFFICE OF THE ASSISTANT SECRETARY OF DEFENSE FOR 
  HEALTH AFFAIRS, U.S. DEPARTMENT OF DEFENSE; ACCOMPANIED BY 
  CAPTAIN FRANCESCA C. MUSIC, MS, MT (ASCP) SBB, DIRECTOR OF 
HEALTH MEDICAL POLICY, OFFICE OF HOMELAND DEFENSE AND AMERICA'S 
          SECURITY AFFAIRS, U.S. DEPARTMENT OF DEFENSE

                   STATEMENT OF KEVIN YESKEY

    Dr. Yeskey. Chairman Mitchell and Dr. Roe, I appreciate the 
opportunity to testify today on my Department's role in the 
National Response Framework, and how we coordinate with the 
Department of Veterans Affairs in our response efforts.
    HHS supports DHS as the overall lead in the coordination of 
incident response. The HHS Secretary leads all Federal public 
health and medical response to emergencies and incidents 
covered under Emergency Support Function 8 of the National 
Response Framework. Within HHS, ASPR, the Assistant Secretary 
for Preparedness and Response, coordinates the national ESF 8 
preparedness and response actions, including medical care, 
public health surveillance, patient movement, and fatalities 
management. In carrying out this responsibility, we depend on 
support from our interagency partners, including the Department 
of Veterans Affairs.
    There is a longstanding tradition of collaboration between 
HHS and VA staff in emergency preparedness activities, 
beginning with extensive collaboration on the creation and 
management of the National Disaster Medical System. HHS deploys 
public health and medical assets to an affected area utilizing 
personnel from NDMS. When NDMS Disaster Medical Assistance 
Teams that provide acute care for victims need to be augmented 
with additional clinicians, we have turned to the VA and they 
have provided us with appropriate personnel. Most recently, the 
VA provided three surgeons and two anesthesiologists for our 
medical teams deployed in response to the earthquake disaster 
in Haiti. In the hurricane season of 2008 VA provided personnel 
to completely staff two of our Federal medical stations.
    HHS, Department of Defense, and VA all have key functions 
in moving patients through the management of Federal 
Coordinating Centers (FCC), which recruit hospitals to 
participate in the NDMS and coordinate in the receipt of 
evacuated patients in host cities. FCCs are critical to both 
patient movement and definitive care for those evacuated in a 
public health emergency. During the 2008 hurricane season VA-
managed FCCs coordinated the receipt of medically evacuated 
patients in Arkansas and Oklahoma. When NDMS was activated for 
the Haiti earthquake, VA personnel coordinated the receipt and 
distribution of patients evacuated to Florida and Georgia to 
receive life-saving definitive care.
    HHS has developed playbooks for 14 of the 15 national 
planning scenarios as a guide to our response to disasters such 
as earthquakes and hurricanes. The VA provides significant 
input into these playbooks as they are developed and revised. 
At the request of the VA, HHS has placed a full-time liaison in 
the VA's Office of Public Health and Environmental Hazards to 
provide continuity of communications between the two 
Departments in the area of preparedness and response. 
Similarly, the VA provides liaison officers to the HHS 
operations center when HHS responds to events. Finally, HHS and 
VA participate in joint training exercises at a variety of 
levels. Our regional emergency coordinators and VA area 
emergency managers participate in exercises at the State and 
local levels. VA staff participate in tabletop exercises at the 
HHS headquarters level, and VA and HHS jointly participate in 
national level exercises. VA staff also participate in our 
annual ESF 8 Integrated Training Summit.
    In conclusion, HHS regards the VA as an integral partner in 
our preparedness and response activities. The VA has provided 
expertise in the development of our preparedness plans and 
clinical support needed for crucial medical care required by 
victims of disasters. HHS's partnership with the VA is strong 
and extremely cooperative. It is one that enables both 
Departments to serve our Nation in times of emergency.
    Thank you for the opportunity to testify today, and I will 
be happy to answer questions that you may have.
    [The prepared statement of Dr. Yeskey appears on p. 43.]
    Mr. Mitchell. Mr. Woodard.

                 STATEMENT OF STEVEN C. WOODARD

    Mr. Woodard. Yes, good morning, sir. Chairman Mitchell, and 
Ranking Member Roe, and other Members of the Subcommittee, I am 
Steve Woodard, Director of Response Operations within the 
Response Directorate at the Federal Emergency Management 
Agency. And we would look forward to our continuing work with 
Congress to ensure that our Nation is prepared for all 
disasters.
    As you all know, incidents begin and end locally, and most 
are wholly managed at the local level. Cognizant of this, we 
must manage these events at the lowest possible jurisdiction, 
supported by additional capabilities when needed. State and 
local governments are closest to those impacted by incidents, 
and have always had the lead in response and recovery. During 
response, States play a key role coordinating resources and 
capabilities throughout the State, and in obtaining resources 
and capabilities from other States. Many incidents require a 
unified response from local agencies, nongovernmental 
organizations, and the private sector, and some require 
additional involvement from neighboring jurisdictions or the 
State itself.
    A small number require Federal support. To be most 
effective, disaster response must be quickly scalable, 
flexible, and adaptable. To meet the challenge of that 
uncertainty, we have developed the National Response Framework 
with our Federal partners. The Framework is a guide for how the 
Federal, State, local and tribal governments, along with 
nongovernmental and private sector entities, will collectively 
respond to and recover from all disasters, particularly 
catastrophic disasters, regardless of their cause. The 
Framework recognizes the need for collaboration among the many 
entities and personnel involved in response efforts at all 
levels of government, nonprofit organizations, and the private 
sector.
    The Department of Veterans Affairs, the second largest 
Federal department, is one of the many agencies supporting the 
Framework. VA is a supporting agency for public works and 
engineering, emergency management, mass care, logistics, public 
health, and medical services. VA can provide available 
resources requested directly by FEMA, or by the primary 
agencies in charge of the emergency support functions, most 
frequently from Dr. Yeskey and the Department of Health and 
Human Services, the primary agency for Emergency Support 
Function 8.
    During disasters, VA can assist the Secretary of HHS by 
coordinating available hospital beds, and providing additional 
personnel, supplies, technical assistance. VA also provides 
technical assistance to FEMA in support of the housing task 
forces established in response to a disaster. VA has also 
provided staffing assistance to call centers.
    Our Nation must be prepared to meet all challenges. I want 
to assure you that we are committed to further improving the 
Nation's response capabilities and to strengthening the 
coordination with the interagency at all levels of government. 
FEMA recognizes that disaster events, regardless of magnitude, 
can be devastating to the people and communities affected. We 
appreciate the support and look forward to our continued 
partnership with VA, and thank you for the opportunity to 
testify, and look forward to any questions the Subcommittee may 
have.
    [The prepared statement of Mr. Woodard appears on p. 44.]
    Mr. Mitchell. Thank you, Mr. Woodard. I would like to ask a 
couple questions of Captain Chen. Captain, could you please 
explain to us a situation where the VA would support you in the 
VA's Fourth Mission, and walk us through the process?

         STATEMENT OF CAPTAIN D.W. CHEN, M.D., MPH, USN

    Captain Chen. Mr. Chairman and distinguished Members of the 
Committee, I would also like to thank you very much for 
inviting us to participate in this panel this morning.
    In response to your question, the VA and the DoD have a 
long history of working together collaboratively on emergency 
preparedness and response. One of the areas that is a key area 
that we work with them day-to-day is wartime casualty care. By 
statute from Congress, a Memorandum of Understanding (MOU) or 
interagency agreement was signed in 2006 between the Department 
of Veterans Affairs and DoD whereby the Department of Veterans 
Affairs sets aside beds and care for a potential surge in 
combat casualties. And as part of that MOU, the VA and DoD work 
together on Patient Receiving Centers, PRCs. These are PRCs at 
VA Medical Centers where there are training and teams available 
in the event of patient receipt and regulation and transport to 
VA Medical Centers. And a lot of work is put into developing 
these PRCs and tracking systems through USTRANSCOM to make sure 
that potential patients are assigned to appropriate hospitals 
in the VA system. Part of the spinoff of that is that 
collaborative work also has benefit in terms of our continuing 
work with the VA in terms of domestic national preparedness and 
in supporting our Federal partners and leads, such as HHS and 
DHS.
    We also have a national disaster medical assistance 
participation through DoD where the DoD and the VA work 
together with HHS, both in patient transport using our 
transport capabilities. And also DoD hospitals and VA Medical 
Centers serve as FCCs, as Dr. Yeskey mentioned, Federal 
Coordinating Centers. And we work very closely together with 
community hospitals in recruiting them to set aside beds in 
private hospitals in the event of, one, wartime casualty surge, 
and number two, national emergencies.
    Mr. Mitchell. Excuse me, Captain Chen. Let me just go back 
a second. There is the Stafford Act. And let me just read part 
of this. The Robert T. Stafford Disaster Relief and Emergency 
Assistance Act is the principal legislation governing the 
Federal response to disasters within the United States. And you 
are talking about wartime casualties. What I am asking you is, 
how often do the VA and DoD coordinate for this Fourth Mission 
of the VA, which is to coordinate and be a support to DoD? Is 
there any coordination at all in this Fourth Mission? And 
second, could you give me the last time when DoD called upon 
the VA to activate this Fourth Mission?
    Captain Chen. The Fourth Mission is something that both the 
DoD and the VA, as support agencies to the National Response 
Framework and ESF 8, when requests for assistance are actually 
tendered to the Department of Defense, we support the States 
and localities and our Federal partners and HHS in providing 
assets and capabilities if they are available at that time. DoD 
and VA work very, very closely on the domestic national 
preparedness activities vis-a-vis our work through the National 
Disaster Medical System and through the wartime casualty care 
because work on those things actually is relevant and has 
benefit back to the Fourth Mission that you mentioned.
    Mr. Mitchell. I understand about the wartime again. But I 
am asking about the natural disasters, where DoD is part of the 
response team, and they are, the Fourth Mission of the VA is to 
work in support with DoD. And I am asking again, how often do 
you coordinate with the VA? And when was the last time that the 
DoD called upon the VA to activate this?
    Captain Music. I would like to take that, if you do not 
mind, Chairman Mitchell. For natural disaster response through 
the National Response Framework, where HHS is the lead of 
Emergency Support Function 8, Public Health and Medical 
Response, we and the VA are supporting Departments as you are 
well aware. We work almost daily with Health and Human 
Services, DHS, and the VA, the other three partners of the 
National Disaster Medical System. Through the National Disaster 
Medical System, directorate staff as well as their senior 
policy group, as well as the Emergency Support Function 8 
Senior Leader Council for Patient Movement, wherein we discuss 
the role of patient movement, as well as definitive care, the 
transport of the civilian populations that we aeromedically 
transport from a military airfield or civilian airfield to a 
point of debarkation, another airport. And we, in conjunction 
with the Veterans Affairs Federal Coordinating Centers, arrange 
for ambulance or other medical transport of those patients into 
civilian National Disaster Medical System hospitals, of which 
there are about 1,800, that we have under memorandum of 
agreement, along with the VA, for medical treatment as 
inpatients.
    So to answer your question more specifically, we coordinate 
with them daily, certainly two to three times a week.
    Mr. Mitchell. With the VA?
    Captain Music. Yes.
    Mr. Mitchell. Thank you. My time has expired. Dr. Roe.
    Mr. Roe. Thank you, Mr. Chairman, and to Mr. Woodard's 
response, is that you are right. If you are in a local natural 
disaster, look out the window, and FEMA is not going to be 
there. The local troops are going to be there, and you are 
going to have to take care of yourself. Once again, I think one 
of the things that we saw was we had planned exactly 30 years 
ago for one of the biggest emergencies that I have seen to move 
a hospital, to move everyone in a hospital, when you have to 
evacuate. That is one of the biggest disasters that can occur 
on a local level. And we took months planning to move a 
hospital, people on ventilators, and critically ill people, and 
so forth. And we are going to do it again in our community in 
about 2 weeks. So that planning is going on now. When you have 
to do that in an emergency basis, I guess the question I have, 
do all the VAs across the country, the 154 hospitals, have a 
plan where if you had to do an emergency evacuation, can they 
do that? Are there plans in place to do that?
    Dr. Yeskey. Yes, I mean I think we have to let the VA 
answer the question about the specific hospitals. We agree with 
you that moving patients is extraordinarily difficult to do, 
particularly the critical care patients. When we do have to do 
that, if those hospitals are in harm's way and they cannot 
shelter in place and safely take care of those patients, we 
have worked on exercises and plans at the local level to 
support the State and locals in that process utilizing Federal 
resources. We have used NDMS personnel to do that. DoD has 
provided the critical care transport with the medical personnel 
on their aircraft, and then VA supports the receipt of those 
patients in the host cities by being able to arrange the ground 
transportation and distribution of those patients to the host 
city facilities.
    Mr. Roe. I know we had, I know before Katrina there was a 
tabletop exercise on that. And did we act on any of that? Dr. 
Yeskey, you may not know. But I know there was a tabletop 
exercise about a year ahead. Was there anything done? Because 
it certainly looked like it was not, or nothing was acted on. 
Of course, that was a disaster that just overwhelmed all of the 
local and State agencies.
    Dr. Yeskey. Yes, sir. A couple of things have been done in 
response to some of those lessons learned from Katrina. One is 
in preparation for the 2006 hurricane season, we went to 
Louisiana, then over the subsequent years went to the Gulf 
Coast States, and then to hurricane prone States, to look at 
hospitals' and nursing homes' capabilities of sheltering in 
place versus evacuation. And we looked at those capabilities 
and determined in a number of areas that they had the 
capability to shelter in place, or the localities through 
mutual aid, Emergency Management Assistance Compact (EMAC), had 
the ability to do that through agreements among hospitals and 
State planning. We also noted that in some cases States did 
not, and localities did not, have the ground transportation 
capability to do that. So FEMA and HHS worked together on 
developing a first regional ambulance contract, then a national 
ambulance contract, that provided ambulances, air ambulances, 
and paratransit seats for people who did not quite need an 
ambulance but could not go by regular conveyance. We set that 
up. That contract has been utilized several times in the past 
couple of seasons very successfully. That is a very tangible 
effect of joint planning and working with the States and locals 
on assessing their needs and trying to determine a way forward 
with that.
    Mr. Roe. I think Katrina was certainly a template and if we 
study that, probably those lessons learned during Katrina have 
prevented things in the future. I know certainly in Tennessee 
with our floods in Nashville, and Clarksville where I am from, 
it worked very well. It was obviously a loss of life, 
unfortunate, but less than it would have been, I think. And I 
think those agencies all worked very well. I am not even sure 
that the national agencies even got involved until later in the 
event.
    Mr. Chairman, I have no further questions. I yield back.
    Mr. Mitchell. I would like to ask a question of Dr. Yeskey. 
In the event of a national emergency or a terrorist attack, how 
many beds are available currently? And in addition to this, 
does HHS in conjunction with the primary and support agencies 
have enough stockpiled items to carry out its mission?
    Dr. Yeskey. Sir, I will try and answer the first question 
at least completely. I may have to get back to you for the 
second question because that somewhat varies on scenario. We, 
through our hospital preparedness program--it is a cooperative 
agreement program managed at HHS that provides States with 
funding to develop hospital preparedness--we have developed a 
system called HAvBED. It is Hospital Available Beds in 
Emergencies and Disasters. Every State implements that and they 
have reporting requirements that within a couple of hours they 
need to report back the status of the hospital beds that would 
be available. In any event, and also in the National Disaster 
Medical System, those participating hospitals are required to 
provide bed counts for us and we test that quarterly for bed 
counts there.
    So in the event of a national emergency like that, we would 
go ahead and we would start HAvBED bed counts and we would also 
look at the NDMS bed counts as well. In addition, we work with 
the American Burn Association to look at burn centers to see 
where those beds are available. Those numbers fluctuate on a 
daily basis. I cannot give you an exact number on how many beds 
we have, but those are the processes by which we would 
determine what beds are available. Then we would work on how, 
with DoD and VA through the Federal Coordinating Centers, how 
we would distribute those patients to hospitals that were able 
to accept them.
    Mr. Mitchell. And one last question. Can HHS tell us right 
now whether any of the medications in the pharmaceutical 
stockpile is expired?
    Dr. Yeskey. That, I will have to get back to you with a 
formal answer on that. But we try and make sure that as many of 
the medications that we have in the stockpile, that we can 
rotate through their shelf life, we do. But I can get back to 
you with a formal answer on that, sir.
    [Dr. Yeskey subsequently provided the following 
information:]

          Within HHS, the Strategic National Stockpile (SNS) is managed 
        by the Centers for Disease Control and Prevention (CDC). The 
        SNS is a repository of antibiotics, chemical antidotes, 
        antitoxins, vaccines, antiviral drugs and other life-saving 
        medical materiel. The SNS mission is to deliver critical 
        medical assets to the scene of a national emergency. During a 
        public health emergency, State and local public health systems 
        may be overwhelmed. The SNS is designed to supplement and re-
        supply State and local public health agencies within the United 
        States or its territories in the event of an emergency.
          Medical countermeasures held in the SNS expire on a routine 
        basis. However, the SNS is managed to maintain minimum levels 
        of each product in viable, ready to use condition. Depending on 
        several cost and inventory management factors, expiring medical 
        countermeasures may be tested for shelf life extension, 
        disposed of and replaced with new product, or disposed of 
        without replacement. These actions are undertaken by CDC to 
        maintain the Federal capability to support State and local 
        response while seeking maximum value for the funds appropriated 
        to the SNS.

    Mr. Mitchell. Thank you all very much for your service, and 
thank you for your testimony.
    At this time I would like to welcome Panel Three to the 
witness table. Joining us on our third panel is the Honorable 
Jose Riojas, the Assistant Secretary of Operations, Security, 
and Preparedness, U.S. Department of Veterans Affairs. He is 
accompanied by Kevin Hanretta, Deputy Assistant Secretary for 
Emergency Management, Office of Operations, Security, and 
Preparedness; and Dr. Gregg Parker, Chief Medical Officer for 
the South Central VA Healthcare System, VISN 16.
    Mr. Riojas, you have 5 minutes if you would. And I will let 
you know that your testimony is part of the record. Thank you.

   STATEMENT OF HON. JOSE D. RIOJAS, ASSISTANT SECRETARY FOR 
  OPERATIONS, SECURITY, AND PREPAREDNESS, U.S. DEPARTMENT OF 
  VETERANS AFFAIRS; ACCOMPANIED BY KEVIN T. HANRETTA, DEPUTY 
    ASSISTANT SECRETARY FOR EMERGENCY MANAGEMENT, OFFICE OF 
  OPERATIONS, SECURITY, AND PREPAREDNESS, U.S. DEPARTMENT OF 
 VETERANS AFFAIRS; AND GREGG SCOTT PARKER, M.D., CHIEF MEDICAL 
   OFFICER, VETERANS INTEGRATED SERVICE NETWORK 16, VETERANS 
   HEALTH ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS

    Mr. Riojas. Thank you, Mr. Chairman. Mr. Chairman, Ranking 
Member Dr. Roe, we appreciate the opportunity to appear before 
you today and provide an overview of the Department of Veterans 
Affairs state of preparedness in carrying out our Fourth 
Mission, that being to provide service to the Nation when 
needed while continuing to maximize service to our Nation's 
veterans.
    I am accompanied today by two outstanding professionals, 
Mr. Kevin Hanretta, Deputy Assistant Secretary for Emergency 
Management; and Dr. Gregg Parker, who is our Chief Medical 
Officer for our South Central Veterans Integrated Service 
Network, VISN 16, whose geographical area of responsibility 
includes New Orleans, Louisiana. Both officials served in VA 
during Hurricane Katrina, Mr. Hanretta at the headquarters 
level and Dr. Parker on the ground in New Orleans. They are key 
leaders today that bring a perspective of experience, lessons 
learned, and improvements that have occurred within the 
Department.
    Mr. Chairman, you and this Committee have a history of 
supporting VA and we appreciate that support. I have dedicated 
my adult life to preparedness. In my experience there are three 
critical elements to a good preparedness program: people, 
plans, and practice. We are fortunate in VA today to have all 
three. Dedicated people, ranging from our Secretary of Veterans 
Affairs who takes preparedness extremely seriously and 
participates in our training exercises personally, to our 
youngest volunteers, newest volunteers, who have placed 
themselves in our volunteer program in the event of an 
emergency. We have robust plans that cover intra-VA 
organizations and are interlinked with those of our sister and 
brother agencies across our government. And we have practical 
experience as well as exercises. Practical experience through 
our support during Katrina, Hurricanes Gustav, Ike, and more 
recently support that was mentioned in Panel Two, during relief 
operations for Haiti. We do not practice in isolation and we 
ensure that both our plans and our execution are done in a 
crosscutting manner with other stakeholders involved.
    We will continue to assess and improve our preparedness 
efforts, but I am confident that we are prepared now to respond 
to our Nation's call as needed during this hurricane season or 
in response to any other national emergency. Again, thank you 
for your support, time, and interest in this very important 
topic, and for providing the best for our Nation's veterans, 
who deserve nothing less. I look forward to your questions.
    [The prepared statement of Mr. Riojas appears on p. 48.]
    Mr. Mitchell. Thank you. I have just a couple of quick 
questions. First, how would you rate the management of the 
pharmaceutical stockpile that the VA has?
    Mr. Riojas. Mr. Chairman, with your permission, I would 
like to offer a couple of different layers of response to these 
questions.
    Mr. Mitchell. Sure.
    Mr. Riojas. Because we have experts that can tell you from 
a practical than kind of a top level assessment, give you on 
the ground assessment. And then I can offer a Department-level 
review.
    Mr. Mitchell. Sure.
    Mr. Riojas. Dr. Parker.
    Dr. Parker. Good morning, Mr. Chairman, and thank you for 
the opportunity. I have a 25-year history as a naval officer, 
and during the course of that I had the responsibility for war 
planning and disaster planning in Southeast Asia. So I can 
contrast and compare the DoD system as well as the VA system.
    I am pleased to say that I have not seen better management 
on the ground and in the field for the disaster medical 
management of the caches. They were predeployed in all of our 
areas. We have a couple of areas in my region that because of 
space and post-Katrina disasters we have not yet replaced the 
caches. But we have them pre-staged and co-located with other 
facilities so they can be responded in a timely manner.
    The drugs are rotated on a periodic basis so that as they 
come up for expiration they are used. There are a few classes 
of drugs, like Chloride and Atropine, that we do not have a 
daily use for. They are strictly for biomedical disasters. And 
so they do expire and we replace them. But I would say with all 
honesty in having been there that this is an excellent program. 
It, I am not sure that it could be better managed. It has been 
very well done.
    Mr. Mitchell. Very good. And a question maybe as kind of a 
followup, in the event of a national emergency or attack, how 
many beds does the VA have right now? Not only just the number 
that are authorized but the number that are operational?
    Mr. Riojas. Mr. Chairman, I would offer that, that is a 
dynamic figure. I did not bring one with me today. I do not 
know if you have a rough order of magnitude. But what we would 
do is we assess the probability of them being utilized. We have 
a robust dialogue and a line of communications with the VISNs 
and with the Medical Center directors to be able to give that 
on a short notice basis. I do not have that answer today.
    [The VA subsequently provided the following information:]

    To provide the Committee/Congressman more insight into the 
availability of VA hospital beds, the Department's Veterans Health 
Administration (VHA) staff reviewed statistics spanning Fiscal Year 
2010 (Oct 2009-Sept 2010).
    As detailed in the chart below, during Fiscal Year 2010, VA had 
approximately 5,000+ available hospital operating beds that could be 
used during an emergency at any given time.
    Please reference the notes related to the below table for details 
regarding the beds.
    The Department of Veterans Affairs anticipates having a real-time 
capability to track, manage and report bed capacities when the VHA Bed 
Management System is implemented systemwide.
    The following chart represents the average beds among all VA 
Medical Centers. We're providing totals for all of FY10 to give you an 
idea of the month-to-month variation.


--------------------------------------------------------------------------------------------------------------------------------------------------------
     Time Period (FY-Month)        10- OCT   10- NOV   10- DEC   10- JAN   10- FEB   10- MAR   10- APR   10- MAY   10- JUN   10- JUL   10- AUG   10- SEP
--------------------------------------------------------------------------------------------------------------------------------------------------------
Hospital--Avg Operating Beds      17,259.6  17,270.5  17,276.9  17,277.6  17,276.8  17,266.4  17,260.9  17,257.3  17,258.1  17,257.8  17,260.6  17,263.4
--------------------------------------------------------------------------------------------------------------------------------------------------------
Hospital--Avg Daily Census (ADC)  11,942.4  11,689.6  11,522.0  11,592.7  11,630.9  11,677.7  11,650.6  11,616.6  11,595.4  11,756.0  11,972.2  12,195.2
--------------------------------------------------------------------------------------------------------------------------------------------------------
Hospital--Avg Daily Available      5,317.2   5,580.9   5,754.9   5,684.9   5,645.9   5,588.7   5,610.3   5,640.7   5,662.7   5,501.8   5,288.4   5,068.2
 Beds
--------------------------------------------------------------------------------------------------------------------------------------------------------
Methodology: The average monthly hospital ADC subtracted from the average monthly hospital operating beds will result in the estimated average available
  beds by month.
Notes:
(1) ADC = Average Daily Occupied Beds (Census).
(2) Hospital Beds include only the following bed services: Blind Rehabilitation, Intermediate Medicine, Internal Medicine, Neurology, Psychiatry, Rehab
  Medicine, Spinal Cord Injury and Surgery.


    VHA anticipates having a real-time capability to track, manage and 
report bed capacities when the Bed Management System is implemented 
systemwide.

    Mr. Mitchell. Fine. And a question about your budget, which 
maybe you do not want to answer this. But is your budget 
sufficient? And secondly, what would you do with another $20 
million?
    Mr. Riojas. Mr. Chairman, we are able to execute the plans 
that we have in place right now with the resources that we have 
been given. Should we be given more money I would sit down with 
our, we have an integrated process team that is looking at our 
initiative and how we are expanding several of our 
capabilities. And I would offer that opportunity to the team as 
a whole, because it is a blend of people, technology. It could 
be something along the lines of training or exercises. And 
today I would not exactly know where to put that without 
dialogue with the entire team. I have the personal assessment 
that it would probably go in the realm of technology but I 
would like to confer with all of those stakeholders across the 
Department before I put a requirement on the table.
    Mr. Mitchell. And the last question, I assume that the VA 
has an emergency response plan. And if you do, when was it 
updated? And how often do you update it?
    Mr. Riojas. I will let you----
    Mr. Hanretta. Mr. Chairman, we review it, the last formal 
plan that was signed was signed by Secretary Nicholson in 2005. 
We review it, update it every year. And we follow it. The 
biggest revision, of course, came with the National Response 
Plan being revised to the National Response Framework, where VA 
now has responsibility to support seven of those fifteen 
emergency support functions. And so we continue to update our 
plans. And with the Office of Operations, Security, and 
Preparedness we are able to do that and focus on a daily basis.
    Mr. Mitchell. And one last thing. In the first panel, Mr. 
Henry talked about, and Mr. Roe even mentioned it again, about 
infectious waste. And I would assume that you would be looking 
at this, if it is a cost savings, and take a look at what was 
presented from the first panel. And Mr. Henry had also talked 
about weather related emergencies. And we all know that there 
is a hurricane season, and tornado, and flood season. And I 
assume you do not wait for these to happen. You know, I live in 
an area where we do not have, knock on wood, many of these 
natural disasters in the Phoenix area. But there are some that 
continually have them, year after year. And I would hope that 
these are well on the radar for your response?
    Mr. Riojas. Mr. Chairman, absolutely. We try to predict as 
much as we can, that is a function of our Integrated Operations 
Center, to take a look at the seasons. And there are cycles, 
obviously. There are several wildfires that we have been 
tracking in Arizona right now. So on a daily basis we track not 
only their distance from our own facilities but the impact on 
the veteran populations in those areas. So we do take a very 
deep look at natural occurrences, be they hurricanes, 
tornadoes, wildfires, or even earthquakes, and take a serious 
look at how we can preposition and be prepared to serve 
veterans, or if needed beyond, in those areas.
    Mr. Mitchell. And if Dr. Roe would just indulge me just a 
second, I want to talk to Dr. Parker. Since you are the one 
that is on the ground, what was the VA's involvement with 
Hurricane Katrina?
    Dr. Parker. If I might make it a little more personal, I 
grew up on the Mississippi Gulf Coast and my parents lived in 
Gulfport at the time. My father has since died, but my mother 
lives there now. On a personal level I insisted on being there 
because they were not able to evacuate, or would not evacuate. 
So I was in the storm, in Katrina, rode it out. And as part of 
the VA as soon as we got them settled, I immediately went back 
up to the regional office and then we deployed many personnel. 
And I believe it was 1,200 VA personnel into the field, into 
the South Louisiana, South Mississippi area. I oversaw the 
deployment of 13 mobile medical clinics over a period of at 
least 6 to 8 weeks, some of which actually operated on a near 
permanent basis in Southeast Louisiana while those clinics were 
then stood up, if you will, under the Capital Asset Realignment 
for Enhanced Services (CARES) System. We opened up additional 
community outpatient clinics at some of those sites, in 
Hammond, Louisiana, in particular.
    So the VA was very, very involved. When we went to the 
field we were going to support veterans. But with the mobile 
medical clinics, and having grown up there and lived there, and 
also deployed into other areas across the world, I knew that we 
were not going to be able to go and support just veterans. And 
as part of the response plan we supported anybody who came into 
the clinic. And as some of you are aware, I believe during that 
6- to 8-week period we saw about 15,000 patients in those 
clinics. About 11,000 of those were not veterans. Most of the 
care that we provided were pharmaceuticals and immediate 
capabilities.
    So in summary, a robust response on the part of the VA, 
well coordinated, well coordinated with the local activities. 
Every clinic that we put in place was coordinated with either 
the local Mayor or the community leaders.
    Mr. Mitchell. One last question about that, what is the 
status of the VA hospital now? I understand that it really had 
a lot of damage during Katrina.
    Dr. Parker. There were two hospitals that suffered 
significant damage during Katrina. There was the second 
facility in the Gulfport-Biloxi area, the one on the beachfront 
was essentially wiped out. And the New Orleans Hospital, which 
is in Downtown New Orleans, it remains closed. There is, are 
two major construction projects at each of those locations. In 
fact, groundbreaking will take place Friday for the new New 
Orleans Hospital, the replacement hospital. And construction is 
underway at the moment where the Gulfport campus was 
consolidated to the Biloxi campus, and all of the beds that 
were lost in the Biloxi-Gulfport area are being reconstructed 
on one campus. That was part of the CARES plan before Katrina 
and it was accelerated post-Katrina.
    Mr. Mitchell. Thank you. Dr. Roe.
    Mr. Roe. First of all, thank you all in general for your 
service to our country, and Dr. Parker, and all of you for 
service as veterans and then as public servants now. So thank 
you for that. And I know Dr. Parker, I understand by reading 
your bio, you are a VISN Director also?
    Dr. Parker. VISN Chief Medical Officer.
    Mr. Roe. Chief Medical Officer?
    Dr. Parker. There is somebody that bosses me around, too.
    Mr. Roe. Probably, and in my case more than one. At your 
end, when the OIG issued his report in 2006 on the VA and 
Katrina, there is specific training that is supposed to take 
place. Is that documented in each, so that is done every year? 
Because I know sometimes you get so busy in patient care you 
put off the plans for doing something else. You are working 
hard everyday.
    Dr. Parker. Dr. Roe, I appreciate the question and I share 
some of the concerns that the American Legion expressed. Let me 
say within our region, post-Katrina and to this day, all of the 
senior leadership and mid-level management leaders in the 
facilities have undergone incident command system training. 
They are well versed in it. We hold at least annual training. 
The most recent training that we held was in, the week of March 
25-26, the coordinated VISN 8, 7, 17, and 16 where we trained 
people in Atlanta. I can assure you that within our region the 
training is ongoing. The formal training is scheduled, the 
informal training is on a daily basis. Each of the facilities 
has emergency managers. We at the VISN have one full-time 
person managing the emergency preparedness.
    Mr. Roe. Now, just a comment, one of the things we have to 
do as a Nation, and we are seeing it again expose itself in the 
Gulf, is that people in this country are losing faith in the 
ability of those of us who are in these positions to be able to 
handle an emergency. And I think obviously when it goes well, 
nobody notices as much. When it goes poorly, everybody notices, 
it is on TV 24 hours a day. But Katrina could have been done 
much better. I think we could say the Gulf could have been done 
much better, and we will learn from that experience in the 
Gulf.
    But I think to be able now, because I know that in my own 
practice the last thing you did was plan for another train 
wreck. You were having it hard enough just doing your job 
everyday. But I think there has to be time put aside, and the 
VA is a huge, 300,000 employees, and I do believe Secretary 
Shinseki is very sincere. I have spoken to him about doing 
this. But there has to be time put aside, even though the 
employees want to get down and take care of patients, and see 
people, and they have more demands on them than they have time, 
I think this is extremely important to be sure we are 
documenting this across the VA system. That is a system we do 
have some control over and we will make it work well. And I do 
think there have been tremendous improvements. I know locally 
at our own VA certainly there have been since 9/11.
    And Mr. Chairman, I yield back.
    Mr. Mitchell. Thank you, Dr. Roe. Well, you know, the issue 
that we have been talking about will require some appropriate 
followup. And I ask for all agencies to work with the VA so 
that we can better serve our Nation's homeland security 
interests. And did you have one other thing?
    Mr. Roe. Mr. Chairman, just one brief question. I am sorry. 
But during Katrina, and this probably has been addressed, but 
patients were moved all over the country, and have done very 
well. But we did not notify their next of kin. They did not 
know where they were. Have we resolved that problem? Because, 
you know, that is your biggest fear. You know? When someone in 
your family is gone somewhere, it is the unknown. They may be 
fine, but if you do 
not know that they are not fine, your mind will tell you a lot 
of things.
    Mr. Hanretta. Dr. Roe, may I address that? You are 
absolutely right. During Katrina, because of the magnitude of 
the disaster, we were not able to do all of the identification 
and notification necessary. Since Hurricane Katrina, HHS, under 
HHS' leadership under the National Disaster Medical System, has 
really focused on patient tracking. They have come up with a 
system, the Joint Patient Assessment and Tracking System, that 
is being used, and the most recent example was during the Haiti 
earthquake evacuation. VA was activated, set up the Federal 
Coordinating Centers in Tampa, Florida and then in Atlanta, 
Georgia. And HHS used the patient tracking system during that 
evacuation. And we did track over 100 patients successfully. 
And so we think in place now is the system that can handle the 
NDMS requirements.
    Mr. Roe. Thank you. And Mr. Chairman, I do want to thank 
each of them, and all the folks that have testified today. I 
believe we are better prepared. But you have to continually do 
that. And that is the, I mean I know we are better prepared 
than we were for 9/11. We certainly are in our local community 
and in our State. It showed during this last disaster down in 
Nashville. But it is an ongoing mission. Because you can never 
prepare for all the contingencies. I can promise you, you think 
you thought of them, you have not.
    But I want to thank you all for being here today. Mr. 
Chairman, I want to thank you for holding this meeting.
    Mr. Mitchell. Thank you. And again, I would reiterate what
Dr. Roe says. Thank you all for your service, and your 
continuing service. And as a result of that, this hearing is 
adjourned.
    [Whereupon, at 11:29 a.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

             Prepared Statement of Hon. Harry E. Mitchell,
         Chairman, Subcommittee on Oversight and Investigations
    Thank you to everyone for attending today's Oversight and 
Investigations Subcommittee hearing entitled, Emergency Preparedness: 
Evaluating the U.S. Department of Veterans Affairs' Fourth Mission.
    On September 11, 2001, we witnessed one of the greatest tragedies 
in American history. Still today, we all remember the horrific scenes 
of these terrorist attacks. Four years later, in 2005, the Gulf Coast 
was hit by one of the biggest natural disasters the region has ever 
seen, as Hurricane Katrina swept through the region, killing thousands 
and leaving many homeless and displaced. And sadly again, today, we see 
Gulf States struggling with yet another major disaster, as the oil 
continues to spill. These types of events highlight the critical need 
for Federal agencies to proactively prepare to effectively execute 
their Federal obligations, especially when called upon during 
emergencies.
    Today, we will evaluate and examine the U.S. Department of Veterans 
Affairs emergency management, preparedness, security, and law 
enforcement activities to ensure the Department can perform the mission 
essential functions under all circumstances across the spectrum of 
threats, including natural disasters. With several health care 
facilities, and hundreds of doctors and health care professionals, the 
VA's emergency preparedness posture, also known as the Fourth Mission, 
must be able to respond when needed and when called upon.
    The Federal Response Plan (FRP) is an important mechanism for 
providing coordination of Federal assistance and resources to areas 
that have been overwhelmed by disaster and emergency situations, while 
supporting the implementation of the Robert Stafford Disaster Relief 
and Emergency Assistance Act. The VA's Office of Operations, Security 
and Preparedness (OSP) is responsible for directing and providing 
oversight for the Department's planning, response and security programs 
in support of the FRP.
    I am looking forward to hearing from the VA their emergency 
preparedness plans and how they coordinate and communicate with other 
agencies such as FEMA and HHS, who are here today, to carry out their 
Fourth Mission.
    Every day, we are reminded of the potential threats that are out 
there that may disrupt the American way of life and the freedoms we 
enjoy each day. The VA must be prepared to respond to these threats and 
offer their full support and resources to ensure that their role in the 
Federal Response Plan is integrated with other agencies to execute its 
mission.
                                 <F-dash>
  Prepared Statement of Hon. David P. Roe, Ranking Republican Member,
              Subcommittee on Oversight and Investigations
    Thank you, Mr. Chairman, for holding this hearing.
    Early this decade, our country faced two major incidents that 
reinforced the need for emergency preparedness. On September 11, 2001, 
our country was attacked in a blatant act of terrorism, as the World 
Trade Centers in New York fell, and the Pentagon burned. First 
responders were called to action, and a Nation mourned. Again in 2005, 
Hurricane Katrina struck the Gulf Coast with an unprecedented fury. 
People's homes were flooded or ripped apart, and major evacuations 
occurred. The Gulf Coast is still rebuilding today.
    Since the attacks of 9/11, the Committee on Veterans' Affairs has 
held four hearings on the subject of emergency preparedness. The last 
hearing was held on August 26, 2004. Today, we will reexamine the role 
performed by the Department of Veterans Affairs (VA) in emergency 
preparedness and its response to national crises and whether that role 
continues to need serious updating and reform. In particular, we will 
focus on the VA's role during wartime, natural disasters, or major 
terrorist attacks on U.S. soil.
    While the Federal Emergency Management Administration (FEMA) and 
the Department of Health and Human Services (HHS) tend to take the lead 
role when an emergency occurs, one cannot deny the large importance of 
emergency preparedness at the VA. With 153 hospitals, and hundreds of 
outpatient clinics spread across the country, VA stands in a unique 
position to provide emergency medical assistance in the event of an 
emergency.
    VA has defined roles currently in both the National Disaster 
Medical System and the National Response Framework (NRF) in the event 
of national emergencies. Among the specialized duties of the VA are 
conducting and evaluating disaster and terrorist attack simulation 
exercises, managing the Nation's stockpile of pharmaceuticals for 
biological and chemical toxins, maintaining a rapid response team for 
radiological events, and training public and private National Disaster 
Medical System (NDMS) medical center personnel in responding to 
biological, chemical or radiological events. Among the Emergency 
Support Functions (ESF) assigned to the VA, which relate directly to 
the mission of the VA, are ESF #6, which includes mass care, emergency 
assistance, housing, and human services; and ESF #8, which includes 
public health and medical services. I am interested in discovering 
today what VA has learned from the events of 9/11, Katrina and 
Hurricane Isabel, and how their role relates to the overall emergency 
response mechanisms.
    Following Hurricane Katrina in September 2005, the Speaker of the 
House called together a Select Bipartisan Committee to Investigate the 
Preparation for and Response to Hurricane Katrina. The report, A 
Failure of Initiative, was issued on February 15, 2006. I understand 
that Ranking Member Buyer had been selected as part of the Committee 
that worked on the report, and one of our own Subcommittee staff, Mr. 
Wu, had been detailed to work on the Bipartisan Investigative 
Committee. I expect that we will hear from the Department that 
improvements have been made following this report, as well as on the 
recommendations made by the report from the Office of Inspector General 
issued in January 2006. I am also curious as to what VA's commitment is 
to emergency management in both dollars and manpower.
    Again, Mr. Chairman, I appreciate you holding this important 
hearing. It is my hope that this will be a good news hearing, and that 
the VA is much better prepared to handle emergencies that come up in 
the future. I yield back my time.

                                 <F-dash>
                Prepared Statement of John N. Hennigan,
 President and Chief Executive Officer, bt Marketing, The Woodlands, TX
Opening Statement to Committee:
    Chairman Mitchell and Members of the Committee, I would like to 
thank you for the opportunity to come to you today as a citizen who's 
been involved with not just the medical industry here and abroad, but 
as an elected official in Montgomery County, Texas.
    I have been fortunate enough to travel extensively throughout South 
America, Europe and here in the States in the health care arena. I have 
witnessed firsthand differences between government facilities and those 
in the private sector, and can state without question the improvements 
I've seen in our VA facilities. A perfect example is the Michael E. 
DeBakey VA Medical Center in Houston, Texas. Prior to this health care 
system being built, in my opinion, our facilities were old and less 
then adequate for the veterans in our area.
    Before going into my testimony I would like to give this Committee 
a brief background of myself for you to have a better understanding of 
why I feel privileged to be able to speak to future needs of our 
veterans and to offer a fresh pair of eyes to the emergency 
preparedness and planning within the VA Department going forward.
    I mentioned earlier that I am an elected official in Montgomery 
County, Texas. I am a board member of the Montgomery County Hospital 
District and have been since 2006. I am currently serving as Vice Chair 
of this Board for my third consecutive year and in addition Chair our 
Legislative Committee.
    The Montgomery County Hospital District is the sole provider of 
emergency ambulance service for Montgomery County, Texas. Serving a 
rapidly growing population of 460,000, MCHD responds to 42,000 calls 
for service each year.
    MCHD serves a pivotal role during disaster response. The agency and 
its staff have taken a lead role in developing the tools to coordinate 
EMS mass response for coastal community evacuation and post-landfall 
response. MCHD's dispatch center was the coordination point for the 
mass EMS response into East Texas following Hurricane Rita. The lessons 
learned from that incident contributed greatly to the statewide success 
during Hurricane Ike--the largest EMS deployment in United States 
history.
    MCHD coordinates public health preparedness and medical branch 
operations in Montgomery County during large-scale operations, 
including the 2009 H1N1 pandemic. Currently, MCHD is coordinating a 
regional effort to develop EMS mass response to no-notice catastrophic 
situations as part of the Regional Catastrophic Planning Grant program.
    Our Hospital District CEO serves as the Chairman of the Southeast 
Texas Regional Advisory Council. This organization is the grant 
recipient and administrative entity overseeing hospital preparedness 
using funding for the nine counties in the Houston region.
    Mr. Chairman, Committee Members, my company has been involved with 
several startup organizations or corporations that are attempting to 
rise to another level. These companies have asked me to come in and 
assess current status, where they have been, and set goals to achieve 
where they would like to get. Through this process I have had clients 
who have benefited by programs that were well intended but lacked long-
range planning.
    The reason I'm here today is that I believe that I can plant the 
seed for new ideas in the hope that this Committee, and our Veterans 
Affairs Department, can nurture these ideas to benefit our veterans.
    Finally, I want to once again thank you for this opportunity to 
testify before this Committee.
Testimony:
    Mr. Chairman, Committee Members, in evaluating the request to speak 
to you today concerning emergency preparedness of the VA system along 
with my company's involvement in both private and public sector, I drew 
from our lessons learned in Montgomery County, Texas. Those lessons 
taught us that there are key topics necessary to address in preparation 
of such catastrophes. Those areas include Communications, Action and 
review of New Programs available.
Communications:
    In our case (Gulf Coast) hurricane season repeats itself every year 
so that preparation becomes a fine-tuning issue versus starting from 
the unknown. In my review of the VA Web site I found it easy to find 
information and locate facilities. This is a large part of the success 
we've had in Montgomery County with the abilities to communicate with 
our residents and it falls under the communications necessary to serve 
the people the VA is charged with caring for.
    The need for our veterans to be able to communicate to the VA is 
essential and in scrolling through the Web site there are several toll-
free numbers to do this. My question to this Committee, and I do not 
know the answer, is: Are we doing enough for them in communicating 
using other forms of contact?
    In addition, since every area of the country has known weather 
disasters (fires, mudslides and earthquakes in the west, tornadoes in 
the mid-section of our country, hurricanes and flooding in the 
Southwest and Northeast, these include 8 zones of the 21 listed: 
Questions 7, 8, 15, 16, 17, 19, 21 and 22), are there plans in place 
through the Veterans Administration that educate our veterans where to 
go and what to do to prepare?
    Since the Veterans Administration has divided the country into 21 
separate zones would it be beneficial for each zone with known 
potential catastrophic issues to communicate to their constituency what 
to do and where to go if such an issue occurs?
Action:
    Are our (VA) facilities prepared in case of a catastrophic event in 
each zone?
Example:
    What we did after Rita was to identify what went wrong (and there 
was plenty) to determine how best to resolve that problem.
    A few problems MCHD incurred during Rita that were addressed and 
solutions found:

    1. Power outage
      a.  No fuel
      b.  No refrigeration
      c.  Not enough generators for those homebound

    2. Evacuation of population
      a.  Freeways and city streets were at a standstill
      b.  No electricity, no communications (i.e.: phones, television, 
radios, computers)

    Again, I believe advance solutions can be found with our knowledge 
of weather-related issues in geographic areas of the United States.
New Programs:
Public:
    Does the VA integrate new communication programs to benefit our 
veterans on an ongoing basis? Is it working with local officials for 
this communication?
    Is there a method that rewards staff members when they create a 
program to better serve our veterans?
    What is the mission of the VA and is it communicated with those who 
have to achieve it?
Private Sector:
    There are always entrepreneurs who can identify problems and create 
solutions. Are we making an opportunity available to them to introduce 
themselves and become a supplier to the VA? I was pleased to see the VA 
supported bill H.R. 114 in assisting our veterans who have been 
``inside the ropes,'' understand the problems, and have creative 
solutions. Are we listening to them?
    Currently, my company has been involved with a program that was 
specifically geared for the benefit of the medical needs in Haiti. 
There, medical needs include requiring operating rooms that are not 
under tents. The company I'm working with is owned by a veteran who 
developed and patented a mobile hospital that in fact has the highest 
medical standard (Joint Commission Inspected) we live by here in 
America. This is a private sector opportunity that could very well be 
integrated into the VA system. It's cost effective and mobile in case 
of catastrophic events.
    My question again is: If I have a company who's created solutions 
to problems, imagine how many other veteran-owned companies or simply 
private entities are out there with solutions to problems.
    No different from our current disaster in the Gulf, when the 
private sector is given the opportunity to create solutions it will. My 
message to this Committee is to assure our veterans the best care 
possible and in order to do that we need to listen to the private 
sector and develop internal solutions through our public entities.
    Finally I want to again express my gratitude for the opportunity to 
speak before this Committee today. It's my hope that my testimony today 
will inspire thoughts for solutions.
    I'll be happy to answer any questions you have.

                                 <F-dash>
        Prepared Statement of Darrell Henry, Executive Director,
    Healthcare Coalition for Emergency Preparedness, Washington, DC
Introduction
    The Healthcare Coalition for Emergency Preparedness was formed in 
an effort to raise awareness and educate people where two of the most 
relevant issues facing health care providers today intersect--what 
health care facilities have to do to maintain operations during a 
crisis, such as a pandemic, and develop efficient methods to reduce 
health care costs. We call it operational sustainability.
    The Coalition consists of health care facilities, equipment 
providers, and industry experts stationed across the country.
    The Coalition believes that a key component of hospital readiness 
lies in the ability of medical centers to maintain sustainable 
operations to meet public health needs and a patient surge on heath 
care facilities in all circumstances. Surge capacity is defined as the 
ability of a health care system to adequately care for increased 
numbers of patients while also having the ability to treat the unusual 
or highly specialized medical needs produced as a result of surge 
capacity.
    A lot of work has been done on the topic of emergency preparedness 
and what hospitals and medical centers can and should do. The Coalition 
is looking at questions like, `What isn't occurring?' `What are the 
systemic weaknesses?' `Where are the vulnerabilities?'
    The Coalition is committed to achieving the following goals for its 
members:

    <bullet>  Highlight vulnerabilities in operational sustainability 
during a crisis or emergency, including medical waste treatment.
    <bullet>  Promote new best practices to help sustain hospital 
operations during a pandemic or other crisis situation.
    <bullet>  Provide expertise and education on hospital preparedness 
and operational sustainability.

    With looming threats of pandemic/epidemic, bioterrorism and 
everyday disease exposure, it is imperative that we utilize today's 
technology to ensure that our hospitals and health care centers have 
the ability to sustain operations in the event of such a crisis or 
emergency.
    One of the largest hindrances to operational security revolves 
around transportation constraints to the hospital itself or such 
impacts on key suppliers and vendors that a hospital relies upon. 
Transportation constraints not only involve passable road conditions to 
access the health care facilities and vendor facilities, but they are 
just as likely to be vendor staffing issues, quarantined facilities, 
availability of transportation fuels, and other nonroad related issues. 
One of the issues we've found that is most often overlooked when 
dealing with transportation constraints, and emergency preparedness 
over all, are adequate provisions and planning relating to regulated 
medical waste.
    According to Walter Reed Army Medical Center (WRAMC) regulation, 
medical waste (aka infectious waste) is any waste that is potentially 
capable of causing disease in man. Such waste would likely contain 
pathogens in sufficient quantity to result in disease, including 
microbiological wastes; blood and blood products; surgical and autopsy 
wastes; and sharps (i.e. needles). Pathological waste is also a 
regulated medical waste, but it is treated differently than infectious 
waste.
    After recognizing that so many medical centers, including VA 
facilities, did not have appropriate processes set up to address the 
disposal of waste during a crisis and that Federal, State and local 
entities do not adequately address the issue, infectious waste disposal 
became one of the first issues identified and addressed by the 
Coalition. In addition, the Coalition is also looking at supply chain 
management and other issues, which are all inter-related.
Background
    The H1N1 swine flu and previous issues, such as SARS, have 
highlighted the vulnerability our health care system faces from serious 
tests of preparedness in the area of operational sustainability in the 
time of a crisis. The ability for our private and government run health 
care facilities to maintain operations during times of crisis is a 
matter of interest for every American and should be a priority for 
Federal and State policymakers.
    Paramount to emergency preparedness and pandemic containment is the 
need for full hospital operational sustainability of hospitals and 
treatment centers. Creating medical centers that can sustain a surge in 
the event of a crisis and continue operations must become a priority 
during a pandemic or other crisis (such as a natural disaster or bio-
terrorism incident).
    The bipartisan Pandemic and All-Hazards Preparedness Act of 2006 
has helped us prepare for the current crisis and deal with future 
crises. There are many sectors of hospital operational sustainability 
that desperately need experienced solution management, but we have 
found the disposal of infectious waste is not being addressed 
adequately by health care emergency preparedness planning, best 
practices and guidance, or resources, and have focused our initial 
efforts on it.
    A 2003 GAO study concluded that many hospitals lack the capacity to 
respond to large-scale infectious disease outbreaks and most hospitals 
lack adequate equipment for a patient surge on a medical facility. 
Further, many reports cite the challenges of medical supply chains, 
both inbound and outbound, to deal with waste products that will 
accumulate in a pandemic or natural disaster.
    In the mid-90's, new regulations made onsite hospital incinerators 
uneconomic due to the restrictions placed on them because of the 
harmful emissions they released in the air. Most hospitals could not 
afford to keep up with the new standards and thus, out of convenience 
for a temporary fix, they resorted to hiring contracted service 
providers who gather waste and truck it offsite to be discarded 
elsewhere. Unfortunately, this temporary solution is still the way most 
hospitals discard their infectious medical waste today.
    With real threats of pandemics, transporting infectious and 
contagious medical waste is no longer prudent. There are modern, 
affordable technologies that can cleanly, safely, and economically 
sterilize infectious and contagious waste on the premises of health 
care facilities. Treating hazardous materials on site is also a 
cleaner, greener, less costly, and, most importantly, safer option.
    Since the mid-90's, 90 percent of our hospitals have chosen to 
export their infectious waste through their local communities and over 
our roads and highways. However, during an outbreak, infectious waste 
should not be allowed to leave the realm of the clinical experts of 
disease control at our Nation's hospitals.
    Various reports by the Center for Disease Control staff, Federal 
health officials, and other experts have recognized the practice of 
inactivating amplified cultures and stocks of microorganisms onsite (as 
a medical waste treatment) is the best practice for emergency 
preparedness and pandemic response. Taking an onsite sustainability 
approach helps address this looming issue of hospital preparedness in 
the case of a pandemic or other crisis. Under such a scenario, the 
volume of hazardous materials would dramatically increase when a large 
population suddenly contracted a contagious disease or incurred a 
disaster and surged a hospital's capacity. Further, because the primary 
method of controlling the spread of infection and avoiding a pandemic 
is quarantining, the development of an onsite approach to waste 
disposal appears to be the most appropriate one.
    Our country has begun to apply stringent actions to avoid some 
catastrophic health threats. The United States Department of 
Agriculture demands that food waste is sterilized at ports of entry to 
avoid agriculture contamination. A logical next step in our efforts to 
polarize waste and keep our country healthy would argue that we should 
sterilize medical waste at the point of generation as well.
    Clearly the operational sustainability advantage is to sterilize 
the infectious waste onsite, but there are other notable benefits with 
regards to treating infectious waste onsite--namely, disease 
prevention, economics, and an environmentally green alternative 
(including reduced truck traffic, no incineration, and clean energy 
power). It also provides a safer option than the current practice of 
hauling medical waste many miles through our neighborhoods and over our 
Nation's roads to be treated offsite, which is particularly dangerous 
in the instance of a pandemic or other dangerous and exotic disease 
outbreak, such as H1N1 or the Ebola virus.
    Expenditures for onsite treatment of infectious waste are perhaps 
the only preparedness tool that would begin to pay for itself from the 
day of installation. Waste treatment systems are custom designed and 
manufactured for each application. Users range from small clinics, 
hospitals, to large commercial processing centers. Prices for these 
systems range from about $150,000 to $1M+. Average health care clients, 
300-400 bed hospitals, will purchase a system that is about $450,000. 
This equipment often produces a return on investment (ROI/payback) 
between 18 and 36 months.
    We have also identified that the development of mobile units can 
give the Federal Government the tools to eliminate infections or 
disease at the source and provide the necessary containment to help 
eliminate pandemic threat and improve public health and safety.
    We remain vulnerable in the area of contagious waste management and 
the threat of pandemics, bioterrorism, and natural disasters are very 
real. There appears to be no rational logic for hospitals not to 
sterilize their infectious waste onsite during a pandemic crisis other 
than the lack of equipment and a lack of incentive to install such 
equipment. However, we must ensure the burden to implement safer and 
greener waste disposal options doesn't fall solely on the hospitals.
Pandemic and Medical Waste Issues
    Last year, the Coalition developed a comprehensive pandemic 
preparedness plan, and has developed a six point action plan for 
medical waste sustainability during a pandemic. The Coalition urged the 
Department of Health and Human Services to consider this plan as a part 
of its response to the recent H1N1 swine flu outbreak.
    We called for the newly confirmed Secretary Kathleen Sebelius to 
adopt onsite sterilization capacity as a best practice as a part of 
health care facility operational sustainability in a crisis and 
dedicate the resources necessary to improve onsite infectious waste 
treatment capacity.
    We have learned a lot from the SARS outbreak on how hospitals adopt 
Universal Precautions regarding infectious waste classification at 
hospitals. Studies showed that during the SARS outbreak infectious 
waste volumes increase by as much as 500 percent due to the 
reclassification of ``infectious'' waste.
    Joint Commission's new mandate for hospitals to be free-standing 
entities for a minimum of 96 hours does not address a pandemic, which 
could last up to 18 months. The only viable solution is to treat 
infectious waste onsite with equipment that has the surge capacity to 
function in a Universal Precautions work environment.
    During the last pandemic in 1968, medical waste management was not 
an issue since nearly all hospitals were treating onsite (incineration) 
and were already commingling the medical and solid waste streams. It is 
a shame to think that this is one area (infectious waste management) of 
hospital preparedness where we have actually made our hospitals more 
vulnerable compared to just 15 years ago.
    If the scope of the pandemic threat is truly global, an outbreak 
would dwarf our already strained resources, which is why it should be a 
priority for the Federal Government to address commonsense solutions 
and resources for onsite infectious waste treatment now in order to 
help ensure the health and safety of every community throughout the 
Nation.
Federal Support for Health Care Emergency Preparedness
    In particular, the Coalition stresses the vital role of Federal 
funding. We are trying to make sure Congress continues to allocate 
funding to support hospital preparedness programs.
    For the private sector, the current Hospital Preparedness Program 
(HPP), which was funded at $375 million in FY09, provides a ready-made 
avenue to offer the financial incentive for medical facilities to 
transition over to onsite methods of infectious medical waste 
treatment. The HPP awards competitive grants or cooperative agreements 
to the States to enable eligible entities to improve surge capacity and 
enhance community and hospital preparedness for public health 
emergencies.
    Currently disaster relief operations lack efficient means to 
dispose of infectious medical waste, including most VA facilities. The 
Federal Government should look at research, development, and deployment 
of mobile sterilization units capable of being deployed to areas 
affected by a pandemic, natural disaster or bio-terrorism attacks.
    The recently released FY10 Hospital Preparedness Program Funding 
Opportunity Announcement clarified onsite waste treatment as an 
appropriate project for HPP funding, which was prompted in part by the 
House Appropriations Committee's FY-10 report language to mandate U.S. 
Department of Health and Human Services (HSS) look at onsite medical 
waste treatment procedures. This guidance is a major victory for 
hospitals that would like to use this grant to help fund this type of 
capital equipment.
VA Emergency Preparedness
    We know that the VA has worked to be in compliance with the 
Homeland Security Presidential Directive, The Joint Commission, the 
National Incident Management System, National Fire Protection 
Association, and other recognized standards, guidance and procedures as 
well as Federal laws such as the Pandemic and All-Hazards Preparedness 
Act (PAHPA). The VA's progress and plans can be reviewed in the VA's 
updated emergency management guidebook.
    While our testimony highlight's our findings and work with private 
hospitals, the principles and findings we've discuss in this testimony 
must also be considered for VA facilities. One of the VA's missions is 
to serve as a safety net when DoD, public health facilities, and 
private hospitals fail or are overburdened. The impacts to private 
hospitals and critical supplies due to such events would likely 
spillover to the VA--especially if we are talking about a serious 
medical surge event or transportation constraint. In such an event, it 
is easy to assume that VA facilities would experience similar 
disruptions in medical waste removal and other services whether or not 
it is providing mutual aid.
    We believe it is important that the VA evaluate each facilities 
management of medical waste and what plans and procedures are in place 
for a crisis and any accompanied disruption in waste management 
services. A simple review of the VA's Pandemic Influenza Plan shows 
that hospitals should plan for transportation difficulties and be 
prepared for alternative routes for additional staff and supplies. In 
regard to supplies, they should have alternative vendors or have 
established agreements in case of emergency, but it does not address 
their supplier's transportation issues. The plans says to handle 
medical waste as it normally would (via the WRAMC policy), but they 
don't deal with contingencies of increased volumes of medical waste, 
the costs of such an increase, staffing shortages, and the many other 
vulnerabilities we've identified in this testimony. We are merely using 
this example to point out that there are a few key points missed in 
this plan and pandemic preparedness could easily be improved by adding 
onsite sterilization equipment.
    We'd also like to point out that installing onsite sterilization of 
medical waste at VA facilities would also provide ancillary and 
immediate benefits for the VA beyond emergency preparedness, including 
cost savings and carbon emission reductions. In regard to cost saving, 
we estimate that onsite waste treatment using sterilization equipment 
can provide an average cost savings of $1.63 million per hospital, 
which would equate to $190.71 million if installed at all 117 VA 
Medical Center hospitals that are currently relying upon offsite 
vendors to haul and treat their waste. Further, regarding the VA's 
ability to comply with Executive Order #13514, the Coalition has 
developed a carbon footprint calculator that can calculate the savings, 
in real numbers of reductions in x pounds of CO<INF>2</INF> emissions 
each year, for those facilities with onsite waste processing and 
estimate the savings for those facilities who switch from off-site to 
onsite processing.
    We have constructively urged that onsite sterilization capabilities 
should be added to the VA's list of best standards and practices as 
well as a mission critical component to their emergency management 
plan. Currently, twenty four VA facilities process their waste onsite. 
We know that other facilities would like to add this component to their 
capital budgets, but have thus far not done so.
    We do not intend to be critical of the VA in this testimony, as we 
haven't audited individual hospital preparedness plans. We do know that 
there are groups within the VA looking at this very issue and recognize 
that onsite medical waste treatment could benefit VA facilities from an 
everyday operational aspect as well as for emergency preparedness.
Additional VA Emergency Preparedness Considerations
    As the one of the missions of the VA is to provide assistance to 
other Federal, State, and local agencies as outlined in the Department 
of Homeland Securities National Response Plan, issues that affect 
private hospitals may also impact the VA. In addition to the medical 
waste issues we've discussed in this testimony, here are other several 
areas of concerns of health care emergency preparedness that have been 
identified by the Coalition.
    Vaccines--currently only one of the five companies producing 
vaccines used in the U.S. for the H1N1 virus are domestically located. 
The majority of vaccines used are produced overseas and then shipped to 
the U.S. The H1N1 virus has helped to unveil severe issues with 
vaccination production and distribution issues inherent with needing to 
ship in vaccines. The Issue of production and distribution of vaccines 
has drawn attention at the Federal level, prompting a hearing in the 
House Energy and Commerce, Subcommittee for Oversight and 
Investigation. While the issues facing the production and supply of the 
H1N1 are important, they only serve to highlight an even more severe 
unpreparedness for a greater virus requiring even more vaccine.
    Surge Capacity--In March of 2008 the House Oversight Committee 
performed a survey of surge capacity in the event of a terrorist attack 
like the commuter train attacks in Madrid, Spain in 2004 that injured 
over 2000 people. The survey was conducted for a similar event in seven 
cities most likely to experience a terrorist attack: New York City, Los 
Angeles, Washington DC, Houston, Chicago, Denver and Minneapolis. 
Results of these surveys demonstrated that none of the hospitals 
surveyed had sufficient emergency capacity to absorb a surge of that 
magnitude. The survey results showed that the average emergency room in 
each hospital was operating at 115% capacity. Surge sustainability is a 
key component of emergency preparedness, terrorist attacks and 
epidemics are examples of an unexpected surge in emergency room need.
    The tragedy that took place in New York on September 11, 2001, the 
collapsing of the overpass in Minnesota, the flooding in North Dakota, 
the hurricanes in Louisiana and Mississippi, and now, the current H1N1 
pandemic are realities of unexpected events we must always be 
expecting. None of the areas surrounding these events were logistically 
prepared to handle the surge capacity or long term sustainability 
needed. These are the sort of unpredictable event that we must prepare 
our health care community to be able to withstand in all areas of the 
country. Protections must be instituted to be able to respond to any 
event in a moment's notice or be equipped to handle long term 
sustainability needs if needed.
    Supply and Services--a key component of maintaining emergency 
preparedness at all times is ensuring that hospitals have enough supply 
capability on hand to withstand a major surge and also sustain an 
extended lapse in re-supply availability. Most hospitals and medical 
centers across the country lack sufficient supplies or systems to 
enable them to handle a sustained surge in patients like would be seen 
in the event of a crisis. A shocking example of hospitals dependence on 
offsite aid can be seen in the fact that most hospitals do not even 
treat their own laundry on the hospital grounds. It is a common 
practice for hospitals to outsource laundry services creating an 
unnecessary vulnerability.
    Gap Analysis--one of the most common suggestions for health care 
organizations is to perform a complete ``Gap Analysis'' as part of 
their Emergency Management Program (EMP). There are four major 
components to a thorough Gap Analysis: (1) Identification of planning 
scenarios along with the number of anticipated casualties for each 
planning scenario; (2) Requirements development; (3) A listing of 
current resources and capabilities; and (4) Identification and 
forwarding to the next higher support agency, the gap between current 
resources and capabilities and the total requirements needed for each 
planning scenario.
    With a well-defined Gap Analyses, VA can then analyze, plan, 
program, budget, procure and pre-position additional resources and 
capabilities needed to close Gaps and sustain and fortify the VAMC's 
hospitals during future emergencies and disasters requiring Federal 
support. Further, gap analysis at the VA should consider needs and 
planning done with DoD, and local and State Emergency Management 
Agencies so it can program for the entire array of ``unmet 
requirements'' including mobile medical units, as well as a full 
complement of staffing by facilities and vendors, medical and 
nonmedical supplies, equipment and services required to support State/
territory and local governments during future disasters and public 
health emergencies.
    We encourage VA emergency managers work extraordinarily closely in 
identification of all gaps in resources and capabilities and forward 
the appropriate unmet requirement gaps up the support chain in order to 
ensure the health care and public health needs of veterans and 
communities reliant on VA support are met.
Conclusions
    Our Nation remains vulnerable in the area of contagious waste 
management during a pandemic or crisis and we need to highlight the 
benefits of prudent alternatives, such as onsite sterilization 
capacity, as a best practice for emergency preparedness and health care 
facility operational sustainability and be considered a mission 
critical system for VA hospitals.
    The Coalition believes that it is imperative that we use technology 
to ensure dangerous medical waste is disposed of in a safe and sanitary 
way, and that the VA is prepared to do so in an emergency. We encourage 
the VA implement appropriate programs that address onsite waste 
disposal for both emergency/crisis, which is important as the most 
hectic periods for health care providers are also the periods that 
typically produce the most waste, and during every day operations where 
it can show cost saving and other benefits.
    Congress should dedicate some of the current Federal funding to 
help cover the initial installation costs of implementing onsite 
technology at VA facilities, which will save the government money in 
the long term. Offering such Federal funding for the implementation of 
a more common sense and cost effective approach for government owned 
health care facilities to deal with infectious waste, and it will set a 
precedent for private hospitals to adopt and deploy such technologies. 
Only scarce funds within the HPP are eligible to hospitals or medical 
facilities transitioning to onsite medical waste treatment in 
preparation for pandemic or other emergency preparedness.
    Furthermore, congress shall appropriate sufficient funding for the 
research, development, and deployment of mobile sterilization units 
capable of being deployed to areas affected by a pandemic, natural 
disaster or bio-terrorism attacks that could be used by multiple 
jurisdictions, including the VA and the National Guard. Currently, our 
Nation's disaster relief operations lack efficient means to dispose of 
infectious medical waste.
    The Coalition believes that a few simple changes in policy, 
including legislative and appropriation efforts by Congress, would help 
improve the methods and best practices by which infectious medical 
waste is handled by VA in this country every day and, as we are 
discussing today, in emergency situations.

                                 <F-dash>
            Prepared Statement of Barry A. Searle, Director,
    Veterans Affairs and Rehabilitation Commission, American Legion
    Mr. Chairman and Members of the Subcommittee.
    Thank you for the opportunity to present the views of the American 
Legion concerning this extremely important, but sometimes neglected 
topic. The American Legion applauds the foresight of this Committee in 
bringing this topic back to a place of importance. As we discuss this 
issue today, I am reminded that on the morning of September 11, 2001, 
then-National Commander of the American Legion, Rick Santos, was 
preparing to deliver the Legislative Priorities of the American Legion 
for FY 2002 in this very room. How quickly the priorities of our Nation 
changed that fateful morning. Today, after almost 10 years, we, as 
veterans' advocates still have priorities that affect the lives of 
America's veterans and their families. Perhaps lulled into a sense of 
security since September 11, 2001, we are now focused on the extreme 
disability claims back log, increased employment opportunities for 
veterans, and better access to quality health care for veterans. While 
these concerns are of great importance, it is equally important that we 
do not lose sight of the fact that our world, and priorities, could 
once again change just as quickly.
    As was seen during Hurricane Katrina in 2005, the recent flooding 
in Oklahoma City and Nashville this year as well as Iowa and the 
Dakotas last year, the earthquake in Haiti, and tornadoes across the 
southern U.S., a natural disaster can be only days, hours, or minutes 
away. Additionally, a weapon of mass destruction can turn an urban area 
into a mass casualty area, crippling communications and overwhelming 
traditional emergency services. Prior planning and coordination are the 
difference between managing a disaster effectively or adding to the 
chaos and suffering.
    The Department of Veterans Affairs (VA) has published policies and 
given guidance concerning emergency preparedness. There is no question 
that VA's Central Office understands and accepts its responsibility to 
prepare for and execute its ``Fourth Mission'' in support of National 
Emergency Preparedness. In VA's 2009 Performance and Accountability 
Report, ``Strategic Goal 4, Contributing to the Nation's Well-Being,'' 
the strategic goal for emergency preparedness addresses Continuity of 
Operations (COOP) at the Under Secretary and Assistant Secretary levels 
as 100 percent prepared.
    While the American Legion applauds VA for its approach to 
preparedness, we are concerned that there may be a lack of oversight 
and feedback concerning preparedness at the Regional Office, VISN and 
facility levels. The American Legion is concerned that the 
participation and preparedness at the Regional Office, VISN and 
facility may be overshadowed by primary day-to-day operations. This 
would potentially lead to confusion and delay in a disaster situation 
in the attempt to organize a response.
    In a January 2006 VA Office of Inspector General (VAOIG) report on 
Emergency Preparedness in Veterans Health Administration Facilities, it 
was reported that ``At the national level, VHA had developed 
comprehensive initiatives and directives to address emergency 
preparedness training, community participation, and decontamination 
activities. However, at the facility level, VA employees did not 
consistently receive emergency preparedness training, and emergency 
plans did not always include some critical training elements as 
required.''
    VA's Emergency Management Strategic Health Care Group (EMSHG) has 
as part of its mission statement an approach that ``. . . assures the 
execution of VA's Fourth Mission to improve the Nation's preparedness 
for response to war, terrorism, national emergencies, and natural 
disasters by developing plans and taking actions to ensure continued 
service to veterans, as well as to support national, State, and local 
emergency management, public health, safety and homeland security 
efforts.''
    The EMSHG publication, ``Legal Authorities of the Veterans Health 
Administration Emergency Management Program'' states, in support of 
Emergency Mobilization Preparedness, ``VA participates in emergency 
medical response measures with other Federal, State, and local agencies 
by providing assistance in seven support functions outlined in the 
Department of Homeland Security's National Response Plan. For example, 
if requested, the types of support VA would provide include public 
health and medical services, emergency management, and public safety 
and security.''
    The American Legion has also studied VA's 2009 Emergency Management 
Guidebook, a well organized framework identifying duties and 
responsibilities. The Guidebook goes into great detail concerning 
training, to include sample scenarios which cover a wide range of 
incidents including hurricanes, earthquakes, and relatively small 
incidents such as a multiple bus accident involving numerous injuries. 
What we were not able to determine is a feedback mechanism to confirm 
implementation at the Regional Office, VISN, or facility level. The 
American Legion believes that disaster preparedness and response cannot 
be trained and implemented in a short period of time. Effective 
communication networks and routine relationships are critical to 
efficient response. For this reason we feel a greater emphasis on 
requiring reporting for annual exercises and training at the local 
level is necessary to insure the proper networks are in place to ensure 
a quick and effective response.
    The American Legion's System Worth Saving Task Force annually 
conducts site visits at VA Medical Centers nationwide to assess the 
quality and timeliness of VA health care. In follow-up conversations we 
have found there is a wide range of actual response preparedness across 
VHA. We believe that this range is symptomatic of the decentralized 
nature of VA. As with other programs there appears to be limited 
follow-up on compliance by Central Office.
    For example, the American Legion and other VSOs have been briefed 
on VHA's pandemic preparedness efforts; in particular, the District of 
Columbia VA Medical Center's preparations for a forecasted H1N1 flu 
epidemic last fall. The facility should be complimented on its 
proactive approach to stockpiling vaccine and its preparedness for the 
potential epidemic. Also during various briefings VSO's were advised of 
the existence of 50 vehicles, 6 of which are specifically allocated to 
VHA, the remainder controlled by VBA. These 38-foot vans are primarily 
tasked with providing veteran counseling outreach, but were 
specifically designed to be adapted for medical purposes during 
disaster relief efforts. In particular, each has satellite 
communications capability critical in a disaster situation. This is an 
excellent program that shows how a specific component can be utilized 
to fulfill multiple roles when the demand exists.
    During 2009, massive flooding overwhelmed portions of the Midwest. 
In Fargo, North Dakota, where regular VA Medical Center operations were 
impacted by the flooding, VA dispatched three mobile Vet Centers for 
use as triage clinics to help bridge the gap for the community until 
regular operations could be restored. The use of these vehicles in a 
successful manner demonstrates that VA's mission as a Support Agency as 
part of Emergency Support Function #8 in the National Incident 
Management System (NIMS) works. However, on the other end of the 
spectrum, during recent discussions with a group of facility directors 
it was found that some had no knowledge of the mobile clinics' 
existence. Such a valuable resource must be part of the ingrained 
knowledge of any facility director or the value of these tools will be 
lost.
    Another demonstration of how advanced preparation can be invaluable 
was pointed out during a recent American Legion staff visit to the 
Atlanta VAMC. Legion staff was briefed about how the facility 
coordinated with local hospitals and DoD personnel to provide medical 
services for individuals injured in the Haiti earthquake under the 
National Management Disaster Assistance program. Several VAMC staff 
members worked at local hospitals to provide assistance as needed for 
the situation. Atlanta VAMC emergency management personnel were the 
team lead for the disaster assistance.
    Unfortunately, we have also found during our followup to our System 
Worth Saving facility visits that at the local level there is in some 
cases a lack of awareness of the responsibility of facilities to 
prepare for non-veteran casualty assistance. The primary focus is on 
mutual support of VA facilities for assisting veterans in a disaster. 
Additionally it was discovered that turnover and shortage of personnel 
at most facilities require renewed emphasis on standardized procedures, 
quality review and individual training, as well as documentation of 
that training. The American Legion has concerns that if not properly 
prepared and trained to respond, these facilities will be quickly 
overwhelmed and unable to support the ``4th mission'' as effectively as 
needed in a time of emergency.
    To further examine the specific, local level of disaster 
preparedness, it is important to go out into the field to assess 
exactly what those levels are, and how they differ from the expected 
and dictated policies.
    The American Legion conducts Quality Review audits of Regional 
Offices across the country to identify issues relating to veterans 
claims. During the 2009 visit to the VA Regional Office (VARO) in New 
Orleans 4 years after the hurricane it was found that the VARO was only 
just starting to approach a sense of normalcy. Interviews with the 
workforce who had been present through the entire ordeal revealed two 
important facts. Every employee felt that the office did the best that 
they possibly could under unimaginable circumstances. However, they 
also felt that there were many failures and there was a hope that the 
lessons learned would be captured. The number one complaint with the 
response to the disaster of Katrina was the poorly defined lines of 
communication. The lesson that must be captured is that a clear-cut 
disaster protocol, with clear lines of communication, must be second 
nature in its actual application.
    Some areas of concern regarding the VA's emergency response mission 
are actually being addressed indirectly by the day-to-day improvements 
VA is implementing in assisting veterans. For example, cited in the 
Department of Health and Human Services (HHS) Medical Surge Capacity 
and Capability Handbook when discussing disaster assistance is, ``many 
of the tenets of the MSCC Management System are not easily achieved.'' 
For example, garnering support and participation from medical clinics 
and private physician offices, while laudable, is by no means a simple 
task to accomplish. Because the private medical community is so diverse 
and disconnected, there is wide variation in motivation and constraints 
to implementing these processes. There is an effort to develop Lifetime 
Virtual Electronic Records (LVER), which will cover an individual from 
``the day you raise your hand till after you are laid to rest.'' This 
system will not only involve DoD/VA participation but in an effort to 
assist with VHA's responsibilities it will also entail establishing 
networks with private physicians to share information. This network 
will, we believe, assist in the communications issues raised in the HHS 
handbook by establishing the Internet connections and bridging 
firewalls between VA/DoD and civilian practices and developing mutual 
understanding of required information.
    Additionally, the emphasis on rural health care clinics and 
telehealth in order to assist veterans will continue to expand the VA's 
outreach and disburse critical assets and make them available in case 
of emergency. For example, should a VAMC's operations in a relatively 
urban area be degraded due to a natural disaster, a relatively close 
rural clinic or clinics with functional telecommunications could be 
developed as staging areas for directing resources and, to some degree, 
triage areas for evacuating casualties until the VAMC could resume full 
operation.
    In conclusion, the American Legion fully realizes the importance of 
VA's Fourth Mission, not only to the veterans that VA serves, but to 
our Nation as a whole. In a resolution approved in 2008 we urged the 
Secretary of Veterans Affairs to take an active role in the development 
and implementation of plans to enhance Federal homeland security 
initiatives and that Congress provide VA with the funding necessary to 
further enhance its capacity to act as a back-up to DoD and FEMA. We 
believe that at the national level VA is serious in this mission. 
However, we feel additional follow-up and reporting on activities on 
the local level is essential to ensure that the Central Office policies 
actually reach the ground level.
    Thank you again for the opportunity to provide insight and analysis 
on this issue on behalf of the American Legion and its more that 2.5 
million members.

                                 <F-dash>
       Prepared Statement of Neal Denton, Senior Vice President,
 Government Relations and Strategic Partnerships, American Red Cross, 
                             Washington, DC
    Good morning Chairman Mitchell, Ranking Member Roe and 
distinguished Members of the Subcommittee. My name is Neal Denton and I 
serve as the Senior Vice President for Government Relations and 
Strategic Partnerships at the American Red Cross. We salute your 
attention to emergency preparedness and appreciate the opportunity to 
join with our partners to share our work when preparing for and 
responding to large-scale disasters. Particularly, I am grateful for 
this opportunity to speak to the partnership between the American Red 
Cross and the Department of Veterans Affairs when it comes to disaster 
response.
    For more than 125 years, the American Red Cross has provided relief 
to victims of disaster and helped families and individuals prevent, 
prepare for, and respond to emergencies. Our Congressional Charter 
mandates that the Red Cross carry out a system of national and 
international relief. We meet our mission through a national network of 
nearly 700 chapters that respond to approximately 70,000 disasters 
annually--about 200 disasters each day. From single family house and 
apartment fires to large scale disasters such as hurricanes and floods, 
the Red Cross works to provide essential lifesaving and sustaining 
services to those in need. We shelter, feed, and provide critical 
supplies and emotional support to those impacted by disasters in 
communities across our country. The Red Cross also provides support to 
members of the military, veterans and their families, supplies nearly 
half of the Nation's blood supply, and teaches lifesaving skills in 
communities across the country. As you know, the Red Cross is a 
charitable organization--not a government agency--and depends on 
volunteers and the generosity of the American public to perform its 
mission, including donations of time, money and blood.
    Whether it is a hurricane or a heart attack; a call for blood or a 
call for help, the American Red Cross is there.
    Red Cross volunteers and staff are on the frontlines when 
emergencies occur in their communities. Our national system builds upon 
our local chapter presence to supplement staff and to provide 
additional resources when necessary. Together, we offer immediate 
emergency assistance to those in need during disasters of all sizes. 
The Red Cross is committed to delivering the best possible response, 
and we strive to continuously improve our operations and services.
    Our organization operates in a constant cycle of responding to 
disasters and preparing for the future. The Red Cross--at the local and 
national levels--regularly participates in activities to build 
capacity, partner, plan, prepare, exercise, and evaluate our 
capabilities. We periodically review and, when necessary, refine our 
roles and responsibilities. This is a critical time of the year, as the 
Red Cross is currently responding to tornadoes, floods and wildfires at 
the same time that we are preparing for the potential demands of what 
is predicted to be a very active hurricane season.
    In preparation for disasters large and small, we carefully analyze 
data and project potential needs for shelters, food, personnel, and 
other operational functions. To meet expected needs, material resources 
have been pre-positioned in warehouses across the country for easy 
access and prompt mobilization. We also have completed a detailed 
assessment of our communication equipment inventory and have verified 
and pre-positioned our Nationwide disaster fleet of more than 300 
vehicles. This fleet includes emergency response vehicles, 
communication vehicles, tractor trailers, and utility vehicles.
    In addition, the National Shelter System (NSS), which tracks 
potential shelter locations and capacities, is populated with up-to-
date data. It now contains location and capacity information for over 
55,000 buildings that could potentially be used as shelters across the 
country. The system, used for both planning and operational decisions, 
records all shelter openings, closings and overnight populations on a 
daily basis. The NSS is available to FEMA and to all States free of 
charge and it is currently being used by 12 additional national 
nongovernment partners. I also am happy to report that the American Red 
Cross features a link to the NSS and shelter locations on the home page 
of our Web site, www.redcross.org.
    Staffing of relief operations is a critical function that requires 
advance planning. We focus on the use of local volunteers whenever 
possible, and also have more than 50,000 trained volunteers who are 
available to travel outside of their home communities. These disaster 
workers are trained for specific jobs, and we are assessing their 
availability for disaster assignments during this hurricane season. 
Including locally available disaster-trained volunteers, the Red Cross 
has more than 90,000 volunteers--a considerable increase from the 
23,000 that were available prior to Hurricane Katrina nearly 5 years 
ago.
Working With Partners--U.S. Department of Veterans Affairs
    While service delivery happens at the local level, it is supported 
by a national system. Our disaster field structure is aligned by State 
and provides a point of contact and integration of plans with Federal, 
State and local officials across the nation. In recent years, the 
American Red Cross has focused more resources on coordination with 
Federal, State, and local government. This increased presence has 
improved coordination and is strengthening key relationships with our 
Federal partners like the Department of Veterans Affairs (VA).
    With support from FEMA, we have full-time Red Cross employees to 
staff each of the ten FEMA regional offices and the two area offices in 
the Caribbean and Pacific. We also have one full-time representative to 
the National Disaster Housing Taskforce and two additional full-time 
staff positions to represent our organization at FEMA National 
Headquarters. We continue to be closely aligned with FEMA and are 
currently collaborating on how to ensure even more information sharing 
and situational awareness during operations as we prepare for what is 
predicted to be a higher-than-average hurricane season.
    In a disaster response capacity, the American Red Cross sits at the 
same table with the Department of Veterans Affairs during planning, 
exercises and operations. With FEMA as the lead agency for 
synchronizing the Federal support to tribal, State and local partners, 
we coordinate closely before, during and after a disaster. Both the VA 
and the Red Cross work in close coordination to identify assets, 
capabilities, and plans with the Federal interagency community. The Red 
Cross and the VA both serve as a support agency for the National 
Response Framework and work closely together on Emergency Support 
Function #6 (ESF #6), providing technical support for Federal mass care 
activities, emergency assistance, housing and human services. During a 
Weapons of Mass Destruction (WMD) incident, both agencies work within 
the ESF #15 External Affairs coordination structure to ensure unity of 
effort on public communication and guidance.
    The VA and the Red Cross also are collaborating with the Department 
of Defense, the Department of Health and Human Services and FEMA as we 
develop a reliable patient and evacuee tracking system. While this long 
term project is in its initial phases, VA hospitals have participated 
in patient evacuation as receivers of medical transferees. Red Cross 
tries to help nonmedical evacuees co-locate in shelters near their 
loved ones and assists in connecting families by using the Safe & Well 
notification system, which is an effective online communication tool 
that helps those affected by the disaster alert family and friends 
outside the immediate area that they are ``safe and well.''
    The American Red Cross is also excited about a possible opportunity 
that will allow us to train and provide resources to the families of 
veterans. In partnership with the VA, the Red Cross can assist families 
through the delivery of Red Cross Family Caregiving and Nursing 
Assistant programs, which will enable them to address the challenges of 
caring for their loved ones. These programs will help participants 
develop skills in personal care, nutrition, home safety and legal and 
financial issues. We believe this information is vital to those caring 
for loved ones who suffer from chronic illness and temporary or 
permanent disabilities. Training builds confidence and instills 
knowledge a caregiver will need when providing support to a veteran.
    Identifying new partners and strengthening existing partnerships is 
a key priority for our organization. We strive to be an effective 
leader and valuable partner before, during and after a disaster. Our 
outreach, however, extends beyond traditional disaster response 
agencies. We continually seek and engage organizations that possess a 
particular critical expertise, community trust, or credibility that can 
greatly expand and improve a community's response. Organization-wide, 
we are committed to fostering a culture of collaboration, diversity and 
inclusion in our partnering efforts.
    On the local level, chapters partner with local community, faith-
based and civic organizations. We also have stepped up efforts to 
ensure that community 2-1-1 organizations have current disaster 
information. On a national level, we continue to rely on our long 
standing partners in disaster, such as Southern Baptist Disaster 
Relief, The Salvation Army, and Catholic Charities. In addition, we are 
cultivating and strengthening more diverse partnerships with groups 
like HOPE worldwide, the NAACP, Legal Services Corporation, National 
Baptist Convention and Tzu Chi Buddhist Foundation. We work closely 
with disability rights groups, immigration rights groups, and language 
interpretation and translation groups such as the National Association 
of Judiciary Interpreters and Translators, the National Virtual 
Translation Center, the National Council of La Raza, National 
Disability Rights Network, Save the Children, and tribal organizations. 
Our work with pet rights groups such as the U.S. Humane Society has 
also been important. All of these groups provide invaluable expertise 
to help clients, in particular diverse clients and those with unique 
needs.
    Together with our partners, we can continue to strengthen the 
country's capacity to better meet the needs of the diverse communities 
we serve.
Encouraging Community and Citizen Preparedness
    Individuals and families across this nation rely upon the American 
Red Cross to deliver on our promise--provide for emergency needs in 
times of disaster. However, the system of relief will not work well 
without continued emphasis on community and personal preparedness. One 
Red Cross national survey last summer showed that approximately 68 
percent of individuals and families have not made an emergency 
communications plan and 79 percent have not identified a meeting place 
should family members become separated during a disaster.
    In August 2009, the American Red Cross Emergency Preparedness 
Survey indicated that approximately half of Americans (51 percent) have 
experienced at least one significant emergency where they have lost 
utilities for at least three days, had to evacuate, could not return 
home, were unable to communicate with family members or had to provide 
first aid to others. More than a third (37 percent) lost utilities for 
at least 3 days. Although 89 percent of those surveyed believe it's 
important to be prepared, far fewer are ready for an emergency.
    American Red Cross preparedness programs and tools help to save 
lives and empower people to prepare for and respond to disasters and 
other life-threatening emergencies. Just as every disaster is 
ultimately an intensely personal experience; the American Red Cross has 
found that a commitment to making our homes and communities safer also 
must be personal. Therefore, preparedness staff members work closely 
with local, State and national partners to help people personalize 
their risk to natural hazards and make preparedness and mitigation a 
personal priority. The overall goal is to build a ``culture of 
preparedness'' by encouraging Americans to understand their individual 
risk and geographical threats and then take action to adopt specific 
preparedness behaviors. The American Red Cross is playing a leadership 
role in hundreds of communities across the nation that has made a 
commitment to be more disaster resistant.
    Conveying a single national message of preparedness is critical. 
Our ``Be Red Cross Ready'' campaign, which parallels the Department of 
Homeland Security's Ready Campaign, offers three important steps: (1) 
Get a Kit; (2) Make a Plan; and (3) Be Informed. This message serves as 
our public call to action for citizen preparedness.
    The valuable partnership among the American Red Cross, FEMA, 
Ready.gov and others was showcased at the Military Family Preparedness 
Event hosted at Fort Belvoir earlier this month. Together, on June 5, 
we distributed approximately 1,500 preparedness kits to military 
families including active duty, retired and reserve soldiers. This 
September, as part of National Preparedness Month, we are planning to 
conduct similar events at four military installations across the United 
States and two locations overseas in order to raise awareness of being 
prepared and to help many families be better prepared for emergencies. 
The locations for the September Military Family Preparedness Events 
are: Fort Drum (Jefferson County, NY); Joint Base Lewis-McChord (Pierce 
& Thurston County, WA); Fort Polk (Vernon Parish, LA); Garrison 
Grafenwoeher (Vilseck, Germany); and Garrison Yongsan (Seoul, South 
Korea). While this is a promising start, there is much more we can do 
to help military families prepare for emergencies.
Conclusion
    Thank you again for this opportunity to be before you today. As we 
enter the 2010 hurricane season and communities across our country are 
already dealing with floods, wildfires and tornadoes, the American Red 
Cross stands ready to help those in need. We are working hard to 
improve efficiencies, and to increase individual and community 
preparedness. Our work would not be possible without a powerful corps 
of volunteers supported by thoughtful and effective partnerships.
    We are especially pleased to be working with FEMA's strong 
leadership team, with Administrator Fugate, and with the leadership in 
the executive branch. The American Red Cross is our Nation's largest 
mass care provider, and we stand ready to work with our partners in 
government, in the nonprofit sector, and in the private sector to 
ensure that the country is as prepared as possible to respond to 
disaster of any kind.
    And finally, a crucial part of our mission at the American Red 
Cross is to create a culture of preparedness prior to a disaster to 
ensure communities are better prepared to take care of themselves, 
their families and their neighbors in the wake of a disaster. We simply 
cannot fail in this mission.
    I am happy to address any questions you may have.

                                 <F-dash>
               Prepared Statement of Kevin Yeskey, M.D.,
       Director, Office of Preparedness and Emergency Operations,
    Deputy Assistant Secretary, Office of Preparedness and Emergency
         Response, U.S. Department of Health and Human Services
    Thank you, Mr. Chairman and Members of the Subcommittee. My name is 
Dr. Kevin Yeskey, and I am the Deputy Assistant Secretary for 
Preparedness and Response, in the Office of the Assistant Secretary for 
Preparedness and Response (ASPR), at the Department of Health and Human 
Services (HHS). I direct ASPR's Office of Preparedness and Emergency 
Operations, which oversees the medical planning and operations for the 
Department. I appreciate the opportunity to comment on the Department's 
role in the National Response Framework, and specifically about how we 
coordinate with and utilize the U.S. Department of Veterans Affairs in 
our response efforts.
    HHS adheres to the National Response Framework which establishes a 
comprehensive, national, all-hazards approach to domestic incident 
response. Within the NRF are 16 Emergency Support Functions. The 
Secretary of Health and Human Services leads all Federal public health 
and medical response to emergencies and incidents covered by the NRF, 
known as Emergency Support Function or ESF #8. Within HHS, and on 
behalf of the Secretary, ASPR coordinates national ESF #8 preparedness 
and response actions.
    Among the ESF #8 functions are medical care, public health 
surveillance, patient movement, and fatalities management. In carrying 
out this responsibility, HHS depends on public health and medical 
resources from within HHS, including the National Disaster Medical 
System (NDMS), the Commissioned Corps of the U.S. Public Health 
Service, and civilians from our component agencies, such as the Centers 
for Disease Control and Prevention and the U.S. Food and Drug 
Administration. Additionally, we request assistance and support from 
our interagency partners, including the Department of Veterans Affairs 
(VA).
    As we develop our plans and execute our response to disasters, HHS 
and the VA work closely together. In my remaining testimony, I would 
like to discuss areas where HHS and VA collaborate in support of our 
common goal of providing high quality public health and medical care to 
those in their time of greatest need.
    With regard to our relationship with the U.S. Department of 
Veterans Affairs, there is a long standing tradition of collaboration 
between the staffs of the two Departments. Consequently, we have shared 
a lengthy history in health related efforts, including emergency 
preparedness activities, beginning with extensive collaboration on the 
creation and management of the National Disaster Medical System. HHS 
has developed ``playbooks'' for 14 of the 15 national planning 
scenarios. These playbooks serve as a guide to our response to 
disasters, such as earthquakes and hurricanes. The VA and other ESF #8 
partners provide significant input into each of the playbooks as they 
are developed and revised. Additionally, at the request of the VA, HHS 
has placed a liaison in the VA's Office of Public Health and 
Environmental Hazards. This liaison provides continuity of 
communications between the two Departments in the area of preparedness 
and response.
    When HHS responds to an event, the VA provides liaison officers to 
the HHS operations center. When HHS deploys public health and medical 
assets to an affected area, we use personnel from the NDMS, a 
partnership between the VA, Department of Defense, Department of 
Homeland Security, and HHS. Disaster Medical Assistance Teams provide 
acute care for victims, often at or near the area of the disaster. When 
these teams need to be augmented with additional clinicians, we have 
turned to the VA for them and they have provided appropriate personnel. 
Most recently, the VA provided three surgeons and two anesthesiologists 
for our medical teams deployed in response to the earthquake disaster 
in Haiti. These clinicians immediately integrated into the teams and 
provided outstanding care. In the hurricane season of 2008, VA provided 
personnel to completely staff two of our Federal Medical Stations and, 
in past hurricane seasons, the VA has provided VA hospital sites for us 
to set up Federal Medical Stations. They have willingly provided staff 
and space when HHS has had the need for such support.
    Through the NDMS, HHS has responsibility for transporting patients 
from disaster sites. HHS, DoD, and VA have key functions in moving 
patients. One of their key functions in patient movement is managing 
the Federal Coordination Centers (FCCs). These FCCs are critical to our 
role in both patient movement and the provision of definitive care to 
patients evacuated during a public health emergency. FCCs recruit 
hospitals to participate in the NDMS and coordinate the receipt of 
patients in host cities. Nationwide, we have 62 FCCs, two-thirds of 
them are managed by the VA. DoD manages the other one-third. NDMS has 
over 1600 participating hospitals nation-wide. In the 2008 hurricane 
season, VA-managed FCCs coordinated the receipt of medically evacuated 
patients in Arkansas and Oklahoma. When NDMS was activated for the 
Haiti earthquake, VA personnel coordinated the receipt and distribution 
of patients evacuated to Florida and Georgia to receive life-saving 
definitive care.
    HHS regards the VA as an integral partner in our preparedness and 
response activities. The VA has provided expertise in the development 
of our preparedness plans. The clinical support provided by VA has 
provided HHS with crucial medical care to victims of disasters.
    We greatly respect the work the VA does in its support to veterans 
on a daily basis. We also appreciate the breadth and depth of clinical 
expertise the VA provides our medical response teams.
    During emergencies, whenever HHS has asked for assistance, VA has 
reliably stepped up to the plate and provided the requested support. I 
believe that HHS's partnership with VA is a strong and extremely 
cooperative one that enables both Departments to serve our Nation in 
times of emergency.
    Again, thank you for the opportunity to be here today. At this 
time, I will be happy to answer any questions you may have.

                                 <F-dash>
                Prepared Statement of Steven C. Woodard,
   Director of Operations Division, and Response Directorate, Federal
   Emergency Management Agency, U.S. Department of Homeland Security
    Good afternoon, Chairman Mitchell, Ranking Member Roe and Members 
of the Subcommittee. Thank you for inviting me to appear before you 
today.
    I am Steven Woodard, Director of Response Operations within the 
Response Directorate at the Federal Emergency Management Agency (FEMA). 
We look forward to working with Congress to ensure that our Nation is 
prepared for all disasters. It is often difficult to know if an event 
might be the initial phase of a larger, rapidly growing threat. 
Response must be quickly scalable, flexible and adaptable. To meet the 
challenge of that uncertainty, we have developed the National Response 
Framework (Framework) with our Federal partners. The Framework is a 
guide for how the Federal, State, local, and tribal governments, along 
with nongovernment organizations (NGOs) and private sector entities, 
will collectively respond to and recover from all disasters, 
particularly catastrophic disasters, regardless of their cause. The 
Framework details a dynamic and flexible response--one that can evolve 
to address new challenges we may face in the future.
    Incidents begin and end locally, and most are wholly managed at the 
local level. Cognizant of this, we must manage these events at the 
lowest possible jurisdiction, supported by additional capabilities when 
needed. State and local governments are closest to those impacted by 
incidents, and have always had the lead in response and recovery. 
During response, States play a key role coordinating resources and 
capabilities throughout the State and obtaining resources and 
capabilities from other States. Many incidents require unified response 
from local agencies, NGOs, and the private sector, and some require 
additional involvement from neighboring jurisdictions or the State. A 
small number require Federal support.
    National response protocols recognize this and are structured to 
provide additional, tiered levels of support when there is a need for 
more resources or capabilities to aid and sustain the response and 
initial recovery. All levels should be prepared to respond, as well as 
have the capacity to anticipate resources that may be required. The 
number, source, and type of resources must be able to expand rapidly to 
meet the needs of a given incident. Layered, mutually supporting 
capabilities at Federal, State, tribal, and local levels allow for 
strategic collaboration during times of calm, as well as an effective 
and efficient response in times of need.
    The Framework recognizes the need for collaboration among the 
myriad of entities and personnel involved in response efforts at all 
levels of government, nonprofit organizations, and the private sector. 
The Department of Veterans Affairs (VA), which is the second largest of 
all Federal departments, is one of many agencies serving as 
cooperating/support for the Framework. Specifically, the VA is a 
Support Agency for five ESFs: ESF 3 (Public Works and Engineering), ESF 
5 (Emergency Management), ESF 6 (Mass Care, Emergency Assistance, and 
Housing & Human Services), ESF 7 (Logistics Management and Resource 
Support) and ESF 8 (Public Health and Medical Services). In my 
testimony, I will outline the different mechanisms available in order 
to create the most effective, cohesive, and efficient response 
capability to mitigate the damage caused by disasters.
Coordination of Federal Responsibilities
    The President leads the Federal Government response effort to 
ensure that the necessary coordinating structures, leadership, and 
resources are applied quickly and efficiently to large-scale 
catastrophic incidents. The President's National Security Staff, which 
brings together Cabinet officers and other department or agency heads 
as necessary, provides strategic policy advice to the President during 
large-scale incidents that affect the nation.
    Federal disaster assistance is often thought of as synonymous with 
Presidential declarations and the Stafford Act; however, Federal 
assistance can also be provided to State, tribal, and local 
jurisdictions, as well as to other Federal departments and agencies, 
through various mechanisms and authorities. Often, Federal assistance 
does not require coordination by the Department of Homeland Security 
(DHS) and can be provided without a Presidential major disaster or 
emergency declaration. Examples of these types of assistance include 
those described in the National Oil and Hazardous Substances Pollution 
Contingency Plan, the Mass Migration Emergency Plan, the National 
Search and Rescue Plan, and the National Maritime Security Plan. These 
and other supplemental agency or interagency plans, compacts, and 
agreements may be implemented concurrently with the Framework, but are 
subordinated to its overarching coordinating structures, processes, and 
protocols.
    When the overall coordination of Federal response activities is 
required, it is implemented through DHS, consistent with Homeland 
Security Presidential Directive (HSPD) 5. Other Federal departments and 
agencies carry out their response authorities and responsibilities 
within this overarching construct. Nothing in the Framework alters or 
impedes the ability of Federal, State, tribal, or local departments and 
agencies to carry out their specific authorities or perform their 
responsibilities under all applicable laws, executive orders, and 
directives. Additionally, it does not impact or impede the ability of 
any Federal department or agency to take an issue of concern directly 
to the President or any member of the President's staff.
Robert T. Stafford Disaster Relief and Emergency Assistance Act
    When it is clear that State capabilities will be exceeded, the 
Governor can request Federal assistance, including assistance under the 
Robert T. Stafford Disaster Relief and Emergency Assistance Act 
(Stafford Act). The Stafford Act authorizes the President to provide 
financial and other forms of assistance to State and local governments, 
certain private nonprofit organizations, and individuals to support 
response, recovery, and mitigation efforts following presidential 
emergency or major disaster declarations.
    The Stafford Act is invoked when an event causes damage of 
sufficient severity and magnitude to warrant Federal disaster 
assistance to supplement the efforts and available resources of States, 
local governments, and disaster relief organizations in alleviating 
damage, loss, hardship, or suffering.
Other Federal Departments and Agencies
    Under the Framework, various Federal departments or agencies may 
play primary, coordinating and support roles based on their authorities 
and resources, and on the nature of the threat or incident.
    In situations where a Federal department or agency is responsible 
for directing or managing a major aspect of a response coordinated by 
DHS, that organization is part of the national leadership for the 
incident. In addition, several Federal departments and agencies have 
their own authorities to declare disasters or emergencies. For example, 
the Secretary of Health and Human Services can declare a public health 
emergency. When those declarations are part of an incident requiring a 
coordinated Federal response, departments or agencies act within the 
overall coordination structure outlined in the Framework.
Federal Actions
    FEMA and DHS engage the Federal interagency on a daily basis 
through numerous channels. Formally, we do so through a Disaster 
Resilience Group (DRG), which is composed of cabinet level departments 
and agencies, including the Department of Veterans' Affairs, and is 
hosted by the National Security Staff. The DRG serves as a forum for 
interagency planning, discussion and policy formation with respect to 
disaster preparedness.
    In the event of, or in anticipation of, an incident requiring a 
coordinated Federal response, the FEMA National Response Coordination 
Center (NRCC) notifies other Federal departments and agencies of the 
situation and specifies the level of activation required. After being 
notified, departments and agencies:

    <bullet>  Identify and mobilize staff to fulfill their department's 
or agency's responsibilities, including identifying appropriate subject 
matter experts and other staff to support department operations 
centers.
    <bullet>  Identify staff for deployment to the DHS National 
Operations Center (NOC), the NRCC, FEMA Regional Response Coordination 
Centers (RRCCs), or other operations centers as needed, such as the 
FBI's Joint Operations Center. These organizations have standard 
procedures and call-down lists, and will notify department or agency 
points of contact if deployment is necessary.
    <bullet>  Identify staff that can be dispatched to the incident 
Joint Field Office (JFO), including Federal officials representing 
those departments and agencies with specific authorities. They must 
also identify lead personnel for the JFO sections (Operations, 
Planning, Logistics, and Administration and Finance) and the Framework 
Emergency Support Functions (ESF).
    <bullet>  Begin activating and staging Federal teams and other 
resources in support of the Federal response as requested by DHS or in 
accordance with department or agency authorities.
    <bullet>  Execute pre-scripted mission assignments and readiness 
contracts, as directed by DHS.

    Some Federal departments or agencies may deploy to an incident 
under their own authorities. In these circumstances, Federal 
departments or agencies will notify the appropriate entities such as 
the NOC, JFO, State Emergency Operation Centers (EOC), and the local 
Incident Command.
Federal-to-Federal Support
    Federal departments and agencies execute interagency or intra-
agency reimbursable agreements, in accordance with the Economy Act or 
other applicable authorities. The Framework's Financial Management 
Support Annex outlines this process. Additionally, a Federal department 
or agency responding to an incident under its own jurisdictional 
authorities may request DHS coordination to obtain further Federal 
assistance.
    In such cases, DHS may activate one or more ESF to coordinate 
required support. Federal departments and agencies must plan for 
Federal-to-Federal support missions, identify additional issues that 
may arise when providing assistance to other Federal departments and 
agencies, and address those issues in the planning process. When 
providing Federal-to-Federal support, DHS may designate a Federal 
Resource Coordinator.
National Response Coordination Center (NRCC)
    The NRCC is FEMA's primary operations management center, as well as 
the focal point for national resource coordination. As a 24/7 
operations center, the NRCC monitors potential or developing incidents 
and supports the efforts of regional and field components.
    The NRCC also has the capacity to increase staffing immediately in 
anticipation of or in response to an incident by activating the full 
range of ESFs and personnel as needed to supply resources and policy 
guidance to a JFO or other local incident management structures. The 
NRCC provides overall emergency management coordination, conducts 
operational planning, deploys national-level entities, and collects and 
disseminates incident information as it builds and maintains a common 
operating picture. Representatives of nonprofit organizations may also 
participate in the NRCC to enhance information exchange and cooperation 
between these entities and the Federal Government.
Emergency Support Functions (ESFs)
    FEMA coordinates response support from across the Federal 
Government and certain NGOs by activating, as needed, one or more of 
the 15 ESFs. The ESFs are coordinated by FEMA through its NRCC. During 
a response, ESFs are a critical mechanism to coordinate functional 
capabilities and resources provided by Federal departments and 
agencies, along with certain private-sector and NGOs. They represent an 
effective way to bundle and funnel resources and capabilities to local, 
tribal, State and other responders. While these functions are 
coordinated by a single agency, they may rely on several agencies to 
supply resources for each functional area. The mission of the ESFs is 
to create an efficient, interagency channel to access the vast disaster 
response capabilities of the Federal Government. During large 
disasters, FEMA hosts video teleconferences with over 200 departments 
and agencies to synchronize response efforts between Federal 
responders, States impacted by the disasters, the JFO, the NRCC and the 
RRCCs. During these video teleconferences, approximately 30-40 
agencies, including the VA, provide updates on the situation.
    The ESFs serve as the primary operational-level mechanism to 
provide assistance in functional areas such as transportation, 
communications, public works and engineering, firefighting, mass care, 
housing, human services, public health and medical services, search and 
rescue, agriculture and natural resources, and energy.
    Each ESF is comprised of an overall coordinator as well as primary 
and support agencies. The Framework identifies primary agencies on the 
basis of authorities, resources and capabilities. Support agencies are 
assigned based on resources and capabilities in a given functional 
area. The resources provided by the ESFs are consistent with resource-
typing categories identified in the National Incident Management System 
(NIMS).
    As stated earlier, the VA is a Support Agency for five ESFs: 3, 5, 
6, 7 and 8. The VA can provide available resources requested directly 
by FEMA or by the primary agencies in charge of the ESFs--most 
frequently from the Department of Health and Human Services, the 
primary agency for ESF 8. During a presidentially declared disaster, 
the VA assists the Secretary of HHS with numerous ESF 8 
responsibilities. These include coordinating available hospital beds, 
additional personnel and supplies, and providing technical assistance. 
In addition, FEMA has a Pre-Scripted Mission Assignment for the VA to 
provide technical assistance to FEMA in support of Housing Task Forces 
established in response to a disaster. Other resources the VA has 
provided during recent disasters include staffing assistance to call 
centers.
    ESFs may be selectively activated for both Stafford Act and non-
Stafford Act incidents under circumstances as defined in HSPD-5. Not 
all incidents requiring Federal support result in the activation of 
ESFs. FEMA can deploy assets and capabilities through ESFs into an area 
in anticipation of an approaching storm or other event that is expected 
to cause significant harm. The coordination between ESFs allows FEMA to 
position Federal support for a quick response, though actual assistance 
cannot normally be provided until the Governor requests and receives a 
Presidential major disaster or emergency declaration. Many States have 
also organized an ESF structure along this approach.
    When ESFs are activated, they may have a headquarters, regional, 
and field presence. At FEMA headquarters, the ESFs support the strategy 
and coordination of field operations within the NRCC. The ESFs deliver 
a broad range of technical support and other services at the regional 
level in the RRCCs, and in the JFO and Incident Command Posts, as 
required by the incident. At all levels, FEMA issues mission 
assignments to obtain resources and capabilities from across the ESFs.
    The ESFs also plan and support response activities. At the 
headquarters, regional, and field levels, ESFs provide staff to support 
the incident command sections for operations, planning, logistics, and 
finance/administration, as requested. The incident command structure 
enables the ESFs to work collaboratively. For example, if a State 
requests assistance with a mass evacuation, the JFO would request 
personnel from ESF 1 (Transportation), ESF 6 (Mass Care, Emergency 
Assistance, Housing, and Human Services), and ESF 8 (Public Health and 
Medical Services). These would then be integrated into a single branch 
or group within the Operations section to ensure effective coordination 
of evacuation services. The same structures are used to organize ESF 
response at the field, regional, and headquarters levels.
    To support an effective response, all ESFs are required to have 
strategic and highly detailed operational plans that include all 
participating organizations, and engage both the private sector and 
NGOs as appropriate. The ongoing support, coordination, and integration 
of ESFs and their work are some of FEMA's core responsibilities in its 
response leadership role for DHS.
NRF Support and Incident Annexes
    In addition to the ESFs, support is harnessed among Federal, 
private sector and NGO partners in the NRF Support and Incident 
Annexes. By serving as coordinating or cooperating agencies for various 
Support or Incident Annexes, Federal departments and agencies conduct a 
variety of activities to include managing specific functions and 
missions or providing overarching Federal support within their 
functional areas. For example, the Department of Veterans Affairs 
serves as a Cooperating Agency for the Critical Infrastructure and Key 
Resources Support Function.
Conclusion
    Our Nation must be prepared to meet all challenges. FEMA recognizes 
that disaster events, regardless of magnitude, can be devastating to 
the people and communities affected. The Framework establishes a 
comprehensive, national all-hazards approach to domestic incident 
response that brings together all levels of government and private-
sector businesses and organizations. The Framework integrates our 
Nation's response plans, capabilities, and preparedness activities 
around common principles, and allows FEMA and its Federal colleagues to 
be more agile and responsive partners with the States and the public 
following a disaster. Thank you for the opportunity to testify and I 
look forward to any questions the Committee may have.

                                 <F-dash>
               Prepared Statement of Hon. Jose D. Riojas,
    Assistant Secretary for Operations, Security, and Preparedness,
                  U.S. Department of Veterans Affairs
    Mr. Chairman, Members of the Subcommittee, I appreciate the 
opportunity to appear before you today and provide an overview of the 
Department of Veterans Affairs' (VA) state of preparedness. In carrying 
out its ``Fourth Mission,'' VA supports national efforts to prepare 
for, respond to, and recover from natural disasters, acts of terrorism, 
and man-made catastrophes. While serving in this capacity, VA must 
continue to maximize its service to Veterans. Today, I will describe 
for you the strategic planning, preparation, and exercises that take 
place across the Department, enabling VA to be a national asset while 
at the same time keeping our promise to our Nation's Veterans. I also 
will share specific examples of VA preparedness efforts, how VA applies 
lessons learned, how VA planned for the H1N1 influenza pandemic, how it 
responded after the earthquake in Haiti, and how we have prepared for 
the upcoming hurricane season.
    I am accompanied today by Mr. Kevin Hanretta, Deputy Assistant 
Secretary for Emergency Management, and Dr. Gregg Parker, Chief Medical 
Officer for Veterans Integrated Service Network (VISN) 16, Veterans 
Health Administration (VHA), which includes the parish of New Orleans. 
Both VA officials served during Hurricane Katrina--Mr. Hanretta in 
Headquarters operations and Dr. Parker on the ground in New Orleans. 
Together they can provide a firsthand account of VA's performance 
during that crisis from a Department-wide and local perspective. More 
importantly, each can attest to the knowledge gained through that 
experience and the ways in which VA has applied those lessons learned 
to enhance its preparedness.
    Since joining the VA team just over a year ago, I have been 
increasingly impressed with the quality of our dedicated professionals 
who work to ensure that VA's preparedness is continuously improved. The 
team within the Office of Operations, Security, and Preparedness (OSP) 
provides an excellent example. OSP's mission is to coordinate the 
Department's emergency management, preparedness, security, and law 
enforcement activities to ensure VA can continue to perform its 
mission-essential functions under all circumstances across the spectrum 
of threats. OSP's success in fulfilling these responsibilities enhances 
the Department's capabilities to support our Veterans and the Nation. 
President Obama has charged Secretary Shinseki to transform VA into a 
21st century organization that is ``people-centric, results-driven, and 
forward-looking.'' Enhancing VA's preparedness is essential to this 
task.
    Preparedness involves using VA's capability to maximize our ability 
to prevent, protect against, mitigate the effects of, respond to, and 
recover from natural disasters, acts of terrorism, and man-made 
disasters. VA's ability to assist, in case of a national emergency or 
act of terrorism, depends on how well we anticipate needs, plan for 
evolving scenarios, and respond with agility to the disaster or threat. 
This means positioning personnel and equipment in anticipation that 
routine modes of transport and communications may be compromised, as 
well as having contingency plans and mapping out next steps. It also is 
important to practice emergency response procedures. Through training 
exercises, senior leaders and other responsible personnel gain 
confidence in knowing what is required to support the mission and to 
continue operations.
Leadership Attention
    Maximizing preparedness requires the attention of leadership. VA's 
Secretary, Deputy Secretary, and senior leaders take preparedness very 
seriously and are committed to investing the time, training, and 
resources necessary to ensure that VA can step up when called to 
action. Through his personal participation in national training 
exercises, Eagle Horizon 2009 and 2010, Secretary Shinseki set the 
example. Secretary Shinseki has established three ``Fourth Mission'' 
priorities for VA: personnel accountability, improved communications, 
and increased capability to serve as a national resource. These 
priorities are reinforced with senior leadership on a regular basis 
during briefings and meetings about operations and have been 
communicated to every level of the Department. Additionally, I am 
pleased to report that, ``Ensure Preparedness to meet emergent national 
needs'' is one of the 13 Department-Level Initiatives within VA's 
Strategic Plan for FY 2010-2014.
Increased Capabilities
    The Integrated Operations Center (IOC), established in June 2009, 
continues to evolve and will allow for more comprehensive and active 
participation by internal VA stakeholders.
    The IOC is the cornerstone of VA's preparedness effort and serves 
as the Department's fusion point for unified command, integrated 
planning, data collection, and predictive analysis. OSP Watch Officers 
staff the VA IOC 24/7. Each of the administrations--Veterans Health 
Administration, Veterans Benefits Administration and National Cemetery 
Administration--along with the Office of Information and Technology 
provide 24-hour coverage as well. The Office of Human Resources and 
Administration and the Office of Public and Intergovernmental Affairs 
provide coverage to the IOC on a daily basis during business hours. All 
other VA staff offices and organizations are available on-call. The IOC 
is the focal point within VA for the receipt, analysis, and 
dissemination of information related to developing and ongoing events 
that potentially affect VA. It forms a nexus that allows for 
situational awareness, coordinated recommendations, and feedback to VA 
senior leaders in real time so that they can make timely and proactive 
decisions. The IOC also serves as the central point for coordination 
with interagency stakeholders at the Federal, State, and local levels.
Planning
    VA is an active member of the Federal planning community and has 
senior representatives on a variety of interagency planning 
initiatives. VA plays a key role in national level training exercises 
and serves as a ready resource for interagency partners.
    The Exercise, Training and Evaluation team in OSP coordinates VA 
participation in all national level exercises. In addition, this group 
conducts monthly preparedness and planning meetings with all 
Departmental Emergency Coordinators, maintains an ongoing comprehensive 
National Incident Management System (NIMS) training initiative, 
conducts quarterly Line of Succession Training, and provides real time 
guidance on all Emergency Management issues to the IOC.
    VA recently implemented WebEOC, which is an emergency management 
National Incident Management System-based collaborative operating 
platform. WebEOC further enhances intra- and interagency communications 
and information sharing and provides VA, through the VA IOC, with real 
time situational awareness of the Department's operational status.
    Furthermore, in the past year OSP has developed, coordinated, and 
published Department policy and plans that address VA Continuity, the 
IOC, VA Serious Incident Reports, VA Devolution, and VA Reconstitution. 
Having such plans in place allows for more efficient and effective 
coordination within the Department. It also can facilitate 
communications with external agencies and stakeholders.
Training/Exercises
    I am proud to report that the involvement of VA senior leaders in 
training and exercises is comprehensive and thorough. Our training and 
exercise planning includes full-scale participation and after action 
reviews that involve all Under Secretaries, Assistant Secretaries, and 
other Key Officials. Continuity of Operations and Continuity of 
government are fundamental objectives of these planning and exercise 
programs. The focus is employee accountability, communications, and 
increasing our capability to provide services to Veterans as we support 
national efforts.
    In the past 12 months, VA has participated in two national 
exercises: Eagle Horizon '09 and Eagle Horizon '10. We deployed more 
than 200 people during each exercise to our alternate and 
reconstitution locations. VA personnel deployed to these sites 
represent our Emergency Relocation Group, whose components are the 
Crisis Response Team, the Continuity of Operations Team, and the IOC.
    VA participation in this year's Eagle Horizon exercise was 
evaluated by the Department of Homeland Security (DHS). DHS has not 
published the results of that review. However, I am confident that the 
VA team effectively demonstrated our capability to continue operations, 
and carry out the Department's primary and supporting mission essential 
functions.
    In January 2010, we conducted a comprehensive devolution exercise 
ensuring that when needed, Department-level command and control could 
be transferred. This exercise was important to validate our procedures 
and led to publication of the first VA Devolution Plan.
Practical Application
    Some of the strategies written into OSP policy and practiced during 
VA and national training exercises are the direct application of 
lessons learned from our experience with Hurricane Katrina. Although 
VHA did not suffer any loss of life resulting from the 2005 hurricane 
season, and all inpatients affected by the storm were accounted for, VA 
did have to close two major medical centers (Gulf Port and New Orleans) 
and evacuate hundreds of patients, staff and family members from them.
    Katrina caused significant disruption to health care operations 
throughout the entire Gulf Coast region. Yet, through alternate venues, 
we were able to continue providing care to Veterans. For example, VA 
deployed a system of 12 ``mobile clinics'' to various sites across the 
region in coordination with local authorities and expanded the capacity 
of our Community-Based Outpatient Clinic in Baton Rouge, Louisiana. A 
key element of our success in this regard was VA's electronic health 
record, which enabled VA clinicians across the U.S. to access the 
medical records of VA patients displaced by Hurricane Katrina. VHA also 
took on a significant role in providing care to non-VA beneficiaries in 
keeping with VA's ``Fourth Mission.''
    In the aftermath of Katrina, VHA deployed 1,300 volunteers and 
staff in a series of 14-day rotations to:

    <bullet>  Operate two Federal Medical Stations (FMS) providing 
medical services to hundreds of non-VA beneficiaries under the National 
Response Plan's Emergency Support Function 8.
    <bullet>  Operate VHA mobile medical clinics.
    <bullet>  Deliver food, water, fuel and supplies to affected 
medical facilities.
    <bullet>  Augment command and control internal and external to VHA.

Medical Emergency Preparedness
    Important lessons learned from Katrina that VHA applies today 
include:

    <bullet>  Conduct a comprehensive assessment of all VA Medical 
Centers (VAMC) preparedness to operate independently.
    <bullet>  Provide equipment and supplies, as well as funds to train 
and exercise Federal Coordinating Centers (FCC).
    <bullet>  Train and prepare cadres to support future FMS 
operations.
    <bullet>  Provide an internal VHA patient evacuation system that 
does not rely on external resources.
    <bullet>  Procure deployable command and control, medical, 
pharmacy, housing and hygiene units.
    <bullet>  Enhance the registry and abilities of the Disaster 
Emergency Medical Personnel System (DEMPS).

    Since 2005, VA has taken a number of steps to improve our medical 
emergency preparedness. After Katrina, VA conducted a business impact 
analysis and is now nearing completion of a comprehensive 3-year 
assessment of the readiness of all 153 VA Medical Centers. We provided 
$2 million for FCC patient reception team caches that can be used to 
support receipt of patients under the Department of Defense (DoD)-VA 
Contingency Plan as well as the National Disaster Medical System 
(NDMS). In addition, VA has procured and tested prototype Dual-Use 
Passenger/Patient Vehicles capable of transporting various 
configurations of ambulatory, wheelchair and litter-borne patients. We 
have an agreement with the General Services Administration to procure 
over 130 of these vehicles, beginning this year. Finally, VHA procured 
25 mobile command and control, medical, pharmacy, housing and hygiene 
units to support internal continuity operations, as well as external 
taskings under the National Response Framework. We also have recruited 
additional DEMPS volunteers and are working on enhancing VA's ability 
to identify and deploy volunteers more efficiently in support of both 
internal and external taskings.
Beyond Katrina
    Returning to Secretary Shinseki's three ``Fourth Mission'' 
priorities of accountability, improved communications and increased 
capability, I would like to highlight certain other accomplishments and 
emphasize VA's preparedness should we be called upon to act.
Personnel Accountability
    In 2009, the Assistant Secretary for Human Resources and 
Administration, John Sepulveda, convened a Departmentwide Employee 
Accountability Task Force. Recommendations from that Task Force have 
resulted in development of the Emergency Employee Information Database 
(EEIDB). The EEIDB is a new tool for identifying employee status during 
an emergency. Mr. Sepulveda continues to lead the effort to test and 
refine this important tool that facilitates employee accountability.
H1N1 Influenza Pandemic
    From the onset, VA carefully monitored the progression of the H1N1 
influenza virus. VHA tracked patient information in order to forecast 
where and when we would need vaccines. The receipt and movement of 
vaccines was carefully managed. Fortunately, the virus did not manifest 
as predicted. Nonetheless, VA continuously responded to the needs of 
our veterans and employees, and was prepared to respond as a national 
asset, if we had been called upon to do so.
Haiti Earthquake Relief
    In preparation to provide support during the Haiti earthquake 
relief effort, VA quickly validated the list of individuals registered 
within the DEMPS. In support of the Department of Health and Human 
Services (HHS), five VA medical personnel were deployed to Haiti. VA 
had a list of available volunteers and was prepared to provide more 
support.
    VA has the responsibility to operate up to 57 FCCs located 
throughout the United States to transfer civilian patients to civilian 
hospitals. At the request of HHS, which is responsible for the NDMS, VA 
operated two FCCs; one in Tampa, Florida, and one in Atlanta, Georgia. 
VA processed more than 100 patients from Haiti. We used this experience 
as another opportunity to refine our policies, plans, and procedures.
Hurricane Season
    This hurricane season, VA again will focus on serving Veterans, 
saving lives, protecting property, and ensuring public health and 
safety. VA has performed admirably during previous hurricane seasons. 
In 2005, following Hurricane Katrina, VA operated 17 of the 18 FCCs 
activated by HHS; supported 89 military aero-medical missions and 
processed 2,830 displaced non-VA beneficiary patients to 220 non-
Federal hospitals in support of the NDMS. Additionally, in 2008, 
following Hurricanes Gustav and Ike, VA operated three FCCs and two HHS 
Federal Medical Stations.
    The National Oceanic and Atmospheric Administration has forecast 
increased hurricane activity this year in the Atlantic. We believe we 
are well positioned and prepared to continue to serve Veterans and 
execute our ``Fourth Mission'' should we be called upon to perform.
Conclusion
    Secretary Shinseki is committed to transforming VA into a ``People-
centric, Results-driven, and Forward-looking'' Department. Maximizing 
our preparedness to execute our ``Fourth Mission'' priorities is a 
significant element of this transformation. The Secretary and all 
senior VA leaders continue to give close attention to preparedness as 
we continue to invest, plan, train and exercise.
    VA will continue assessing and improving its preparedness 
procedures. Nonetheless, I am confident that we have the capability to 
respond to our Nation's call as needed during this hurricane season or 
in response to any other threat or national emergency.
    Thank you for your support, time, and interest in providing the 
best for our Nation's Veterans who deserve nothing less. I look forward 
to your questions.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
